<html>
<title> - IMPLEMENTATION OF THE IRAN NUCLEAR DEAL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                IMPLEMENTATION OF THE IRAN NUCLEAR DEAL

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2014

                               __________

                           Serial No. 113-115

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-466 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana                 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director




            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida                     






                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark D. Wallace, chief executive officer, United 
  Against Nuclear Iran (former United States Ambassador to the 
  United Nations)................................................     9
Mr. Gregory S. Jones, senior researcher, Nonproliferation Policy 
  Education Center...............................................    24
Mr. Olli Heinonen, senior fellow, Belfer Center for Science and 
  International Affairs, Harvard University (former Deputy 
  Director General of the International Atomic Energy Agency)....    32
Mr. David Albright, founder and president, Institute for Science 
  and International Security.....................................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark D. Wallace: Prepared statement................    12
Mr. Gregory S. Jones: Prepared statement.........................    26
Mr. Olli Heinonen: Prepared statement............................    34
Mr. David Albright: Prepared statement...........................    42

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
Questions submitted for the record by the Honorable Luke Messer, 
  a Representative in Congress from the State of Indiana, and 
  responses from:
  The Honorable Mark D. Wallace..................................    83
  Mr. Gregory S. Jones...........................................    84
Questions submitted for the record by the Honorable David 
  Cicilline, a Representative in Congress from the State of Rhode 
  Island, and responses from:
  Mr. Olli Heinonen..............................................    85
  Mr. Gregory S. Jones...........................................    88

 
                IMPLEMENTATION OF THE IRAN NUCLEAR DEAL

                              ----------                              


                       TUESDAY, JANUARY 28, 2014

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on Middle East and North 
Africa) presiding.
    Ms. Ros-Lehtinen. Thank you so much. So the joint 
subcommittee will come to order. After recognizing myself, 
Ranking Member Deutch, and, of course, we will hear from our 
Foreign Affairs full committee chairman Mr. Royce, we will hear 
from Chairman Poe and Ranking Member Sherman, for 5 minutes 
each for our opening statements, and then due to time 
limitations, we will go directly to our witnesses' testimony. 
And without objection, the witnesses' prepared statements will 
be made a part of the record. And members may have 5 days to 
insert statements and questions for the record subject to the 
length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    On November 24, 2013, Secretary Kerry announced that an 
interim negotiated settlement had been reached between the P5+1 
and Iran on its nuclear program. The announcement contained the 
broad strokes, but was short on the details.
    The picture that was painted was that Iran would agree to 
modest limits on its enrichment capabilities, increased 
International Atomic Energy Agency monitoring, the cessation of 
manufacturing centrifuges, and it would not fuel the Arak 
heavy-water reactor. In exchange, Iran would receive an easing 
of sanctions on its oil sales and the suspension of certain 
sanctions on the import of precious metals and exports from 
Iran's auto and petrochemical sectors.
    No doubt President Obama will count this deal as the 
ultimate achievement for diplomacy and peace while excoriating 
those of us who had the temerity to say, hey, wait a minute, I 
don't trust the Iranian regime. Let's have a backup plan to 
increase sanctions on Iran if it is found to be acting 
unfaithfully, which, as history has shown, is not out of the 
realm of possibility.
    But though the announcement was made in November, it wasn't 
until 1 week ago, on January 20th, that the technical details 
were agreed upon and finally implemented. The most glaring 
deficiency with this interim deal is its lopsidedness. Iran got 
a sweetheart deal, and the rest of the world is not any safer 
from the Iranian bomb than before.
    Our closest ally and friend in the region, the democratic 
Jewish State of Israel, has been very concerned with what this 
deal means for its security from the get-go. And other 
countries in the Gulf region feel slighted by our approach to 
this issue.
    But let's set aside the dangerous precedent that this sets 
for the rest of the world and the bridges that we have burned 
with allies to reach this agreement. Remember, this agreement 
doesn't even live up to the obligations set forth by the U.N. 
Security Council's resolution on Iran and is far from our 
policy of disarmament from only 10 years ago, and focus on what 
Iran is allowed to do.
    Iran is allowed to keep its nuclear weapons program 
infrastructure intact and will still be allowed to enrich. 
Sure, there are caps to the enrichment, and it will have to 
convert some of its uranium to oxide, but Iran will maintain 
the ability, know-how and proficiency that if it decides to 
break the agreement, it can continue toward breakout capability 
with only a minor setback in any timetable.
    It is a shame that we have seemingly acquiesced to Iran's 
demand that it has some sort of right to enrich. Iran had long 
ago abandoned all claims to a right of enrichment when it 
decided to conduct a covert nuclear program and was in 
violation of its international obligations under the NPT and 
other treaties. It therefore must not be allowed to enrich, and 
I fear that by starting out where the P5+1 did here, Iran will 
never be pushed off this stance in a final comprehensive 
agreement.
    The interim deal focuses on the nuclear aspect and falls 
short on Iran's weaponization efforts and its ballistic missile 
program, which it now has more time to advance. And there is 
nothing in the interim agreement that allows the International 
Atomic Energy Agency to access Iran's military sites. And, for 
me, what is really at the crux of the issue here: Time. From 
announcement to implementation, 2 months' time has passed. This 
gave the regime plenty of time to continue to make advancements 
while the parties hashed out all of the technical details. I 
don't believe this was done by mistake on their part, as 
Rouhani is an expert in delay tactics and doubletalk.
    In the 2 months after Secretary Kerry's press conference in 
Geneva, Tehran has announced that it has made advances in its 
ICBM technology, it has designed a new generation of uranium 
centrifuges and is ready to manufacture them, and that it would 
continue construction at its heavy-water reactor in Arak. I 
envision a scenario in which Iran may comply with this 
agreement for 6 months, but even if Iran does violate the terms 
of the agreement, the joint commission that it established in 
the final document has murky authority at best to conduct 
oversight, enforce compliance, or impose strict consequences. 
There is no mechanism that allows for adjudication of 
violations in this deal, and that is very troublesome.
    Bottom line: As long as the infrastructure is in place for 
Iran to continue its nuclear program, the threat that it can 
create a nuclear weapon will always be all too real, and that 
is where the P5+1 monumentally failed in this interim 
agreement. And with Rouhani and Zarif stating just last week 
that Iran would not dismantle any part of it nuclear program 
under any circumstance, it has me fearing what the 
administration will accept in a final comprehensive agreement.
    I look forward to hearing from our witnesses, their 
testimonies, and the views of my colleagues. And now I turn to 
my good friend, the ranking member, Ted Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman, Chairman Poe, for 
holding today's hearing to examine the implementation of the 
first phase of the Iran nuclear deal. And thank you to our 
panel of very distinguished experts for appearing here today. 
We welcome your expertise and your insight as we determine the 
efficacy of Iran's actions under the JPOA, and the next steps 
in reaching a final agreement to achieve our ultimate goal of 
preventing a nuclear-armed Iran.
    Let me be clear from the outset: There is no doubt that 
resolving the Iranian nuclear crisis through diplomacy has 
always been the preferred track of the administration and of 
the Congress. I think we all recognize the significant 
achievement of the U.S. efforts to bring Iran to the table. But 
there are many members of both sides of the aisle who feel that 
it is absolutely appropriate for Congress, the body that built 
the sanctions architecture that brought Iran to the table, to 
remind the Iranians that full sanctions relief will come only 
when a deal acceptable to the P5+1 and our regional allies is 
reached.
    This relief can only come if Congress acts, so I would also 
suggest that it is appropriate to send Iran a reminder, as well 
as to remind the companies lining up to visit Tehran a message 
of what is at stake if Iran violates the terms of the Joint 
Plan of Action.
    A deal is in place, and if we are going to move forward 
with the final deal, we have to focus on ensuring that Iran 
fulfills its obligations, while beginning to define the 
acceptable parameters of a comprehensive solution. We are 8 
days into the implementation of the Joint Plan of Action, a 6-
month deal to freeze Iran's nuclear activities, resulting in a 
complete cessation of Iran's 20 percent enrichment and the 
conversion of its current stockpile, as well as to open up 
Iran's nuclear program to intrusive inspections. And while 
these caps on Iran's current program are substantial, we know 
that they cannot be the terms of a long-term deal. We must 
ultimately see serious, permanent rollbacks of the program, not 
just easily reversible freezes.
    We know that the Joint Plan of Action sets the course for 
Iran to maintain a mutually defined enrichment program 
consistent with practical needs. Iran continues to claim a 
right to enrich for nuclear power, but we must understand that 
none of Iran's current enrichment activities are useful for a 
civilian nuclear program.
    Consider: Iran already has a nuclear energy reactor at 
Bushehr that is running on imported Russian fuel. In fact, the 
Russian deal requires the use of Russian imported fuel, just as 
other offers from Western nations to fill Iran's nuclear power 
needs are contingent on the use of imported fuel from those 
nations. It would take Iran years to build the technology 
necessary to turn its low-enriched uranium into fuel for a 
power reactor. We must remember that none of Iran's current 
stockpile of domestically enriched uranium can be used in its 
nuclear reactor. To that end, the majority of nations with 
nuclear power don't domestically enrich uranium, and instead 
import the fuel from other countries.
    So what does this all mean? Iranian stockpiles are 
essentially useless for their domestic energy program. However, 
19,000 centrifuges and 7 tons of enriched uranium are highly 
useful when a nation is trying to build a nuclear weapon.
    We can all agree that nuclear science is complicated, but 
it seems that someone with only a cursory knowledge of nuclear 
technology understands the dangers posed by Iran's nuclear 
enrichment activities.
    Despite the access granted under the JPOA to the IAEA to 
inspect centrifuge-manufacturing facilities, can we be sure 
that we are going to be able to see the manufacturing of all 
the various parts that make up--again, can we be sure that Iran 
is not continuing to manufacture more centrifuges at other 
locations? Moreover, can we verify that Iran has not already 
commenced a third unknown enrichment site? It should not be 
lost on us that both Fordow and Natanz were also constructed in 
secret until being exposed by the international community in 
2002 and 2009 respectively. And Iran has long said that it 
intends to have up to 10 enrichment facilities.
    Under the JPOA, Iran may continue its research and 
development, allowing them to continue work of centrifuge 
development. Mr. Albright, you note in your testimony that 
centrifuge R&D could also lead to breakthroughs in materials or 
methods that would further strengthen a secret breakout effort. 
How concerned should we be that continued R&D will simply allow 
Iran to install highly advanced centrifuges in 6 months, or in 
a year, or in 5 years? These are the kinds of difficult 
questions that have to be answered if the P5+1 are to reach an 
acceptable final deal.
    But perhaps most critically, before any long-term deal is 
reached, Iran must come clean about all aspects of its program. 
This includes finally addressing all outstanding IAEA concerns 
of the possible military dimensions, the development of nuclear 
explosive devices, procurement of nuclear-related materials by 
the IRGC, and military-run activities at the Parchin site.
    The Institute for Science and International Security 
described the Parchin site as a huge site dedicated to the 
research, development, and production of ammunition, rockets 
and high explosives. Iran must know at the outset that they 
will not be able to sweep these allegations under the rug.
    I look forward to discussing with our witnesses the path 
forward to halting what is the greatest threat to international 
security, a nuclear-armed Iran. And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now we turn to our full committee chairman Mr. Royce 
for his opening statement.
    Mr. Royce. Well, thank you very much, Chairman Ros-
Lehtinen, and I thank you, and I thank Chairman Ted Poe, and 
also Mr. Deutch, for that very well-reasoned argument that he 
just laid out. And, Ileana, I think you laid out a compelling 
case as well.
    I think all of us are a little stunned. I think we are 
stunned that not only does Iran continue to enrich uranium, but 
they are very, very vocal about the fact that they are going to 
continue the research and development on faster and faster 
spinning of centrifuges. And for them to be making this 
pronouncement in the middle of this interim agreement on how 
they are reaching this capability to develop and spin these 
centrifuges at supersonic speeds, setting new records, implies 
a certain intent on undetectable nuclear breakout capability.
    I think this is what Members worry about. We worry that, 
you know, as you try to work out an agreement here, and we talk 
about the plutonium reactor, the heavy-water reactor facility 
at Arak, they make the point that they are going to continue 
performing work at that site.
    I think the large quantities of existing stockpiles when 
they make the comment that, no, they are not going to draw down 
on those stockpiles, all of this sends a message in terms of 
what their intent is, and, quite simply, these elements of a 
nuclear program which we are talking about right now will 
continue to operate as the talks go on. So I think for the 
Members of the House here on the Foreign Affairs Committee, we 
are a little concerned that unless Iran is pressed to fully 
reveal Iran's extensive activities to develop and test a 
nuclear device, unless we get that out on the table--and, as we 
hear today, there is a great deal of evidence that Iran has 
devoted much effort to this over the years. Unless we have the 
details on that, I think we are left wondering about Iran's 
clear intentions here.
    And I don't think we want them to cover up that extensive 
evidence either. And part of it is because we watch Iran's 
actions. Over 400 executions last year of political and of 
religious opposition in the country. Stoning is still going on 
in Iran as a penalty. It is a capital offense for things such 
as adultery. As has been mentioned a number of times, a regime 
that is stoning women with one hand shouldn't be allowed with 
the other hand to get its grip on a nuclear weapon.
    I mean, this is just logical that we be concerned about 
this. And if a comprehensive agreement is reached, the threat 
of a nuclear-armed Iran is not going to be over for a couple of 
other reasons.
    One of today's witnesses has estimated that even if we were 
to force Iran to dismantle 80 percent of its 19,000 installed 
centrifuges, and, of course, they say, you know, they won't 
dismantle one of them, even if we were to force it to close its 
entire enrichment facility at Fordow, even if we were to 
dismantle or convert its planned heavy-water reactor to a 
light-water reactor, agree to a multidecade intrusive 
inspections regime, the fact is that Iran would still be 6 
months away from nuclear breakout. So if we are in a situation 
right now where they won't give ground on any of these points 
that I have just raised, I think we have something of a problem 
on our hands.
    So even if the administration were to achieve this 
agreement, which increasingly, many say, might be a 50/50 
proposition, I think that was the administration's assumption, 
especially now that we have let up on sanctions pressure, Iran 
will likely still possess the capability of very quickly 
producing a nuclear weapon. Why do I say that? Because when you 
let up on sanctions pressure, you let up on the one thing you 
had that made it hard for them to get hard currency, that might 
make the ayatollah make the tough choice between compromising 
on the nuclear program or economic implosion. So that is gone 
now. The message is out, you know, Iran is open for business. 
You see the headlines, you know, the next day in the Wall 
Street Journal: Businesses rush to Iran to cut business deals. 
You see their stock market go back up, their currency go back 
up in value. So we could end up, if we are not careful, ending 
up on a track to have us face a permanent nuclear threat from 
Iran because we rehabilitate their capabilities.
    And so that is why I thank the chairwoman, I thank Mr. Poe 
and Mr. Deutch for their observations on this. But I especially 
thank the panel of witnesses, because our four witnesses today 
are true experts in this field. We look forward to the 
testimony.
    Ms. Ros-Lehtinen. Well put. Thank you so much, Mr. 
Chairman.
    We now turn to the ranking member of the TNT Subcommittee, 
Mr. Sherman.
    Mr. Sherman. A November agreement was supposed to last 6 
months, but not until 2 months after it was signed, 8 months. 
It can be extended for another 6 months. We are looking at 14 
months. What happens during the 14 months? Their 20 percent 
stockpile, half gets oxidized, but it is still 20 percent. 
Another half gets diluted and oxidized. More low-enriched 
uranium is created and stockpiled, albeit in oxidized form. 
Work on centrifuge technology continues, though certain 
centrifuges will not be used. This delays only for a short time 
when Iran would have a nuclear weapon, because the 20 percent 
oxidized uranium can be converted back to a gas quite quickly. 
Iran uses that same technology to convert yellowcake into 
gaseous uranium. And at the end of this agreement, Iran may be 
a little bit further than they were in November from their 
first bomb, but will be closer to a cache of 5 to 10 bombs 
because they will have all of the additional low-enriched 
uranium that they create during the pendency of the deal.
    The sanctions relief has been very substantial because it 
has changed the business climate. It is not just the content of 
the relief. There are loopholes in our existing sanctions laws. 
Companies have been reluctant to exploit those because they 
figure the next sanctions law was around the corner. Well, now 
it is not, and so we see a rush to do business with Iran.
    The disagreement here in Washington is actually rather 
modest. There seems to be agreement that we are not adopting 
new statutory sanctions until July, or at least not letting 
them become effective until July. The administration 
significantly has agreed to enforce existing sanctions, and 
would do that even if the Iranians threatened to walk out of 
the agreement.
    Secretary Kerry was in this room where your witnesses are 
sitting now. He agreed that he would continue enforcing the 
existing law. Within a day they designated roughly a dozen 
entities, the Iranians walked out. They came back. So we agreed 
to enforce existing laws. We agree no new laws will become 
effective until July. So the question is under what 
circumstances will new sanctions becoming effective in July go 
into effect, and who will make that decision, the President 
alone or the President with Congress?
    Who will decide that Iran is just engaged in a delay 
program, or that we have reached sufficient progress? I don't 
think Congress should surrender this role, because Congress has 
been right, and three administrations have been wrong. From 
1996 to 2010, Congress didn't enact major sanctions 
legislation. Why? Because three administrations sought so 
effectively, usually in the Senate, to prevent the adoption of 
that legislation. Congress is right. The House was more right 
than the Senate, and Congress was more right than three 
different administrations.
    Now we are being asked, oh, just don't do anything. Trust 
the President. He will do the right thing. The fact is that we 
are told by the administration we can adopt new sanctions in a 
nanosecond, should we decide that that is important. What he 
really means is, what the administration means is, we can adopt 
new sanctions in a nanosecond if the administration agrees with 
them; but if they don't, their capacity for delay and 
obfuscation, for dilution and defeat of sanctions has been 
proven. It was proven effective in 2009. It was proven 
effective for the 8 years of the prior administration.
    What are our choices? We can act now and adopt sanctions 
that will go into effect in July, but also schedule a vote in 
July where Congress could decide by joint resolution to suspend 
or prevent the sanctions from becoming effective, and we would 
do so if adequate progress is made. We can have a compromise 
approach, right, and conference on the sanctions, and schedule 
a vote, affirmative vote, of both Houses of Congress without 
delay, without filibuster, without obfuscation, without further 
division between the committees and the Houses as to what the 
content would be, and pass new legislation, if warranted, in 
July, and soon enough to prevent any pocket veto since we go 
out in August.
    The final approach is what I call the narcolepsy approach: 
Go to sleep until the administration decides to wake us up. 
Then they say, then we will get around to thinking about 
something in July because we will notice that the 6 months 
which is 8 months has passed. At that point you can be sure 
that this administration, like the prior two administrations, 
will be for delay, dilution and defeat, and we will be in 
session only a few weeks between the end of July and the end of 
the year. So Iran will get a full year of relief from 
sanctions, and actually 14 months.
    I think the one thing for this hearing to establish is that 
we are not going to adopt the narcolepsy approach; that we are 
going to have sanctions that Iran will know will go into effect 
in July if adequate progress, determined by Congress, is not 
reached, and with that, I think our negotiators will be far 
more effective than if Congress is regarded as on vacation.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Sherman.
    And now we go to the chairman of the TNT Subcommittee, 
Judge Poe from Texas.
    Mr. Poe. Thank you, Madam Chair.
    The world powers surrendered to the Iranian nation's will. 
Those are the words of Iranian President Rouhani. It should not 
surprise any of us that the Iranians view this agreement as a 
win for them, a loss for us, and a loss for a safer world. 
Iran's Foreign Minister boasted, we did not agree to dismantle 
anything, referring to their enrichment activities. He is 
right. Iran not only gets to keep its infrastructure intact, it 
gets to keep enriching, or it gets to keep its yellow cake and 
eat it, too.
    The U.N. has voted on five occasions, saying Iran has 
cheated in its nuclear capability, and they should not be able 
to enrich at all. In one deal Iran just wiped away all of those 
U.N. resolutions.
    When the United States negotiates a deal that makes the 
U.N. look tough, we got a problem. Just as bad, none of its 
changes agreed to are permanent, and verification is difficult. 
Hours after Iran signed the agreement, their top nuclear 
negotiator bragged on Iranian TV that they could ``return to 
the previous situation in 1 day.''
    In reality, estimates suggest the Iranians could still 
achieve nuclear breakout capability in 6 months. This agreement 
doesn't force Iran to stop its nuclear program. Rouhani is a 
snake oil salesman. He sold poison medicine to us, and the 
State Department gave away the farm and the mineral rights in 
exchange. This agreement bars Iran from installing nuclear 
equipment at its heavy-water reactor, Arak, but allows them to 
continue to construct its nuclear reactor. The problem is that 
Arak's reactor size and design is too big for a peaceful 
reactor. Experts say it more closely resembles a nuclear 
weapons facility. Well, no kidding.
    When asked if he thought that Arak could be used for 
peaceful purposes, former State Department nonproliferation 
official Robert Einhorn said, ``Yes, it could. A 12-inch 
hunting knife could also be used to spread jam on your toast in 
the morning.''
    In this deal Iran will get $6 billion in cash payments over 
6 months. Iran also gets billions more as companies who were 
sitting on the sidelines out of fear of the sanctions now say 
it is okay to do business as usual with Iran. This could inject 
about $20 billion into Iran's economy according to sanctions 
expert Mark Dubowitz.
    The Iranians know there is no enforcement mechanism once a 
final agreement is reached because all sanctions will be 
lifted. Despite what the White House says, it will be nearly 
impossible to restart punishing sanctions if Iran cheats or 
lies. You can't turn on sanctions, can't turn them on and off 
like a light switch.
    I talked to Prime Minister Netanyahu right after this deal 
was signed. He is correct. This is a bad deal for Israel and a 
bad deal for the United States. The only leverage we had on 
Iranian hardliners was tough sanctions that brought their 
economy to its knees. By easing sanctions we have blunted our 
sharpest tool to get a peaceful solution. We have made peace 
less likely. This is a flawed appeasement deal that gave away 
too much to Iran. It is similar to Chamberlain's appeasement to 
the Nazis in the 1930s, where the allies boasted of peace in 
our time and got World War II. I think we will see this interim 
deal extended for another 6 months while Iran continues to 
enrich and march closer to a nuclear weapon.
    Iran has agreed to freeze its nuclear enrichment. They must 
dismantle their nuclear weapon program, not just freeze it. The 
Iranian Supreme Leader hasn't changed his goal. He has said he 
wants to destroy Israel. He wants to destroy the United States. 
I think we should believe him when he says he wants to get rid 
of us. So Congress cannot wait. We should pass tougher 
sanctions, not let up on sanctions at this time. And that is 
just the way it is, Madam Speaker.
    Ms. Ros-Lehtinen. Thank you very much, Judge Poe.
    And the bells have rung, but I am going to introduce our 
witnesses, and I think that we will have time to listen to our 
first witness, Ambassador Wallace, before we break.
    First we will welcome Ambassador Mark Wallace, Chief 
Executive Officer of United Against Nuclear Iran, which he 
founded in 2008. His organization has been a leader in 
pressuring businesses to end their dealings with Iran, and has 
promoted sanctions legislation to prevent a nuclear-armed Iran. 
Prior to this position, Ambassador Wallace was U.S. Ambassador 
to the United Nations on U.N. management and reform issues. We 
welcome you, sir.
    Next we will welcome Mr. Gregory Jones, thank you, Senior 
Researcher at the Nonproliferation Policy Education Center. Mr. 
Jones has been a defense policy analyst for the past 40 years 
and brings great expertise in the areas of nonproliferation and 
counterproliferation, especially regarding terrorist 
organizations and regimes attempting to acquire nuclear 
technology. Welcome, sir.
    Third, we welcome Mr. Olli Heinonen--I am sorry if I don't 
say that right--close enough--Senior Fellow at the Harvard 
Kennedy School of Government. Prior to this position, he served 
for 27 years at the International Atomic Energy Agency, 
including as Deputy Director General. He led the Agency's 
efforts to identify and dismantle nuclear proliferation 
networks, including overseeing its efforts to monitor and 
contain Iran's nuclear program. He has led nuclear programs 
investigations around the world, including to South Africa, 
Iraq, North Korea, and Syria. Welcome, Olli.
    Last but not least we welcome Mr. David Albright, a 
physicist and founder and president of the Nonprofit Institute 
for Science and International Security. Mr. Albright has 
written numerous assessments on secret nuclear weapons programs 
throughout the world and has coauthored several books on the 
subject.
    Your statements in full will be made a part of the record, 
and please feel free to summarize them. We will start with you, 
Mr. Ambassador.

  STATEMENT OF THE HONORABLE MARK D. WALLACE, CHIEF EXECUTIVE 
  OFFICER, UNITED AGAINST NUCLEAR IRAN (FORMER UNITED STATES 
               AMBASSADOR TO THE UNITED NATIONS)

    Ambassador Wallace. Thank you, Chairman Ros-Lehtinen, and 
Chairman Poe, Ranking Member Deutch----
    Ms. Ros-Lehtinen. I think you need to--I don't know if the 
mike is on.
    Ambassador Wallace. There we go. Thank you, Chairman, and 
Chairman Poe, Ranking Members Sherman and Deutch, and members 
of the joint subcommittee. Thank you for the opportunity to 
testify before you once again. I am honored to sit here on the 
panel with a group of very distinguished and committed 
colleagues. It is a true honor.
    We at UANI sincerely hope that a comprehensive and 
verifiable agreement that rolls back Iran's nuclear program is 
reached in 6 months, but the prospects appear small, and we 
must confront the difficulties with candor and bipartisan 
debate.
    The Joint Plan has provided disproportionate sanctions 
relief to Iran, and allowed Iran to retain and continue to 
develop and advance a dangerous nuclear program. Under the 
agreement, Tehran will not dismantle a single centrifuge or its 
heavy-water reactor at Arak, IR-40. Today Iran retains the 
ability to produce enough weapons-grade uranium for a bomb in 
as little as 2 months, and Iran has not indicated that it would 
end its development of the IR-40. At the same time the 
sanction's architecture, developed over decades, has been 
significantly rolled back, and enforcement has fallen to a 
trickle. What is the acceptable scope and size of Iran's 
enrichment program, and will we permit Iran to operate the IR-
40?
    If Iran truly only sought a peaceful nuclear energy 
program, there would be no need for any enrichment or a heavy-
water reactor. The international community seems to have 
forgotten there are multiple U.N. Security Council resolutions 
calling for Iran to suspend all enrichment. Regrettably, the 
Geneva Joint Plan declares that in any final accord, Iran will 
be permitted to enrich and is, at best, vague regarding the 
future of the IR-40.
    Today you will hear a range of opinions on what an 
acceptable Iranian enrichment program would look like and the 
dangers of Iran's operation of the IR-40. We should all agree 
that extending Iran's breakout time from its current 30 to 60 
days to well beyond is the imperative. But does any serious 
person believe that Iran is prepared to dismantle between 
15,000 and 19,000 centrifuges and forego the installation of 
far more efficient and advanced centrifuges? Clearly not.
    Sanctions have become so important to this matter. 
Unfortunately, the White House has described the sanctions 
relief provided in the agreement as economically insignificant. 
We disagree. Iran's economy is blossoming.
    Some hard data. The rial has increased in value by more 
than 25 percent. The Tehran stock exchange has increased by 
nearly 100 percent. Dozens of multinational corporations are 
returning to Iran. Iran's oil exports have increased by nearly 
60 percent.
    Iran's oil exports have risen to 1.2 million barrels per 
day from a low of 761,000 barrels per day. Under the Joint 
Plan, Iran's oil exports will increase further, and if oil 
sanctions continue unaltered, Iran's oil sales would have 
continued to drop to as little as 500,000 barrels per day by 
the end of 2014.
    Importantly, the administration has curtailed its 
enforcement efforts. In 2013, the United States Treasury 
Department designated 183 entities for Iran's sanctions 
violations. Since President Rouhani's election, the United 
States has blacklisted only 29 entities. The Obama 
administration must hold to its pledge to enforce sanctions.
    The White House estimates that Iran stands to receive $6 
billion, to $7 billion in sanctions relief. The true value of 
sanctions relief is well more than $20 billion. Just calculate 
the increase in oil sales, lest there be any doubt. Now we 
believe there will be far less pressure for Iran to actually 
make material concessions on its nuclear program.
    The Congress must actively take part in this process and 
make its position known. We all must agree that Iran will not 
be permitted to retain an industrial-scale nuclear program. 
This would entail capping the number of IR-1 centrifuges to a 
small fraction of the nearly 20,000 Iran currently possesses 
or, more appropriately, none at all. Iran must be kept well 
over a year away from breakout, given its long history of 
duplicity and hostility. Rouhani strongly supports efforts to 
impose sanctions on Iran in 6 months' time until a final accord 
is reached.
    The Congress should pass and the President should sign into 
law the Nuclear Weapons Free Iran Act, which has the support of 
a bipartisan majority. It is wrong that the White House is 
characterizing those who support new sanctions or question the 
Joint Plan as dishonest warmongers.
    History offers a disturbing precedent. In the 1990s, we 
entered into a similar interim nuclear agreement with North 
Korea. The Agreed Framework became the proverbial can that was 
kicked down the road. No final agreement was ever struck, and 
the DPRK surprised the world with a nuclear test. This time 
Congress must make clear that if there is no final agreement 
after the Joint Plan's initial 6-month term, that Congress will 
adopt more robust sanctions. We must learn the lessons of 
history and not repeat its mistakes.
    Thank you, Madam Chairman, for the opportunity.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Ambassador.
    [The prepared statement of Ambassador Wallace follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. And the subcommittees will recess while 
we vote, and we will come right back to hear the rest of our 
panelists and to have members question them. The subcommittee 
is in recess.
    [Recess.]
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    Thank you for your patience as we voted. We will have 
another set of votes at 4 o'clock, so we hope that we can 
almost wrap it up.
    Mr. Jones, you are welcome to make your statement, and your 
prepared remarks, as we said, will be made a part of the 
record. Thank you, sir.

     STATEMENT OF MR. GREGORY S. JONES, SENIOR RESEARCHER, 
            NONPROLIFERATION POLICY EDUCATION CENTER

    Mr. Jones. Thank you.
    In early November, Secretary of State Kerry said of the 
ongoing negotiations with Iran, ``We need to get the right 
deal. No deal is better than a bad deal.'' Unfortunately, the 
November 24th Joint Plan of Action is a bad deal. This fact has 
been obscured by both a mischaracterization of the deal's 
benefits and the denial of the deal's great flaw.
    President Obama has said that the deal has ``cut off Iran's 
most likely paths to a bomb.'' This is not true. Before the 
current nuclear deal, Iran could produce the highly enriched 
uranium, HEU, for a nuclear weapon in just 6 weeks. Over the 
next 6 months, the Joint Plan of Action will increase this 
interval only slightly, to 8 weeks. Iran will remain perilously 
close to a nuclear weapon.
    The Joint Plan of Action allows Iran to continue to produce 
3.5 percent enriched uranium, which is the key starting 
material for any uranium effort to produce HEU for weapons. 
Iran's stockpile of this material will continue to grow during 
the course of this nuclear deal, though several White House 
statements as well as Secretary Kerry have incorrectly claimed 
otherwise. As this stockpile of enriched uranium grows, the 
number of nuclear weapons that Iran could produce from it will 
grow as well.
    Iran's stockpile of 3.5 percent enriched uranium in the 
form of uranium hexafluoride is not supposed to grow. Iran is 
supposed to convert the excess into an oxide form, but Iran can 
easily convert this material back into hexafluoride once it 
begins to produce nuclear weapons. This fact is well known to 
U.S. technical experts, but their input was apparently either 
not sought or heeded.
    The Joint Plan of Action does have some benefits, and there 
are those who have argued that even limited benefits are better 
than no deal, but this view ignores the great flaw in the deal. 
It permits Iran to retain centrifuge enrichment. Centrifuge 
technology puts any country within an arm's reach of the HEU 
for nuclear weapons.
    The Joint Plan of Action has already stated that when the 
follow-on so-called comprehensive solution has expired, Iran 
``will be treated in the same manner as that of any nonnuclear 
weapons state party to the NPT.'' This means that in, say, 5 or 
10 years, Iran's nuclear program will be under no special 
restrictions, and if the P5+1 members have allowed Iran to keep 
its centrifuge enrichment program, then not only could it build 
as many centrifuges as it wants, it could also import 
centrifuges as part of normal nuclear trade. Iran could then 
have a larger, more robust centrifuge enrichment program and be 
much closer to acquiring nuclear weapons than it currently is.
    What is worse, the Joint Plan of Action will be setting a 
precedent for all other nonnuclear-weapon countries. After all, 
if Iran is to be treated in the same manner as that of any 
nonnuclear-weapons state party to the NPT, then the reverse 
would be true as well. If Iran, that has violated its IAEA 
safeguards by conducting clandestine centrifuge enrichment and 
has defied multiple U.N. Security Council resolutions demanding 
that it halt its centrifuge enrichment, is allowed to retain 
this capability, on what basis can any country that has abided 
by its IAEA safeguard obligations be denied centrifuge 
enrichment? The Joint Plan of Action is setting the stage for 
many countries to acquire centrifuge enrichment, making it very 
easy for them to produce the HEU for nuclear weapons whenever 
they desire them.
    Unfortunately, there are no good options to head off a 
nuclear-armed Iran. Any negotiated settlement would require 
major reductions in Iran's centrifuge enrichment program, 
reductions that Iran has already said it will not agree to. 
Further sanctions are unlikely to be effective since countries 
such as Russia and China will probably undercut them. Military 
strikes could easily lead to an ill-advised major war with 
Iran.
    The U.S. instead needs to try to strengthen the overall 
nonproliferation system, which appears to be unraveling. Key to 
this effort will be to stop countries from using nominally 
peaceful nuclear activities to acquire the HEU or plutonium 
needed for nuclear weapons. The U.S. needs to urge the IAEA to 
clarify which materials and facilities it can effectively 
safeguard and which it cannot. A negotiated agreement with Iran 
that legitimizes its centrifuge enrichment program would be a 
step in the wrong direction.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Jones.
    [The prepared statement of Mr. Jones follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Mr.--help me out.
    Mr. Heinonen. Thank you very much.
    Ms. Ros-Lehtinen. Heinonen.
    Mr. Heinonen. Heinonen.
    Ms. Ros-Lehtinen. Got it.

 STATEMENT OF MR. OLLI HEINONEN, SENIOR FELLOW, BELFER CENTER 
   FOR SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD UNIVERSITY 
  (FORMER DEPUTY DIRECTOR GENERAL OF THE INTERNATIONAL ATOMIC 
                         ENERGY AGENCY)

    Mr. Heinonen. Chairman Ros-Lehtinen, Ranking Member Deutch, 
distinguished members of the committee, thank you very much for 
inviting me to address this hearing.
    I will concentrate my remarks on the verification aspects 
of this deal which was concluded on the 20th of November, 
highlight some of the implications from a verification angle, 
and make some minor proposals for the way forward.
    The interim agreement is a small but important step 
forward, which got, after a long delay, finally a good start on 
the 20th of January. Under this deal Iran continues to produce 
low enriched uranium, keeps both 5 and 20 percent enriched 
uranium stocks on its soil, maintains centrifuge production 
capabilities, including the skills of the workforce, and 
continues with centrifuge R&D and testing.
    Iran will produce additional centrifuge rotors only to 
replace broken ones, but is not restricted in its production of 
other key centrifuge components or raw materials. No new 
centrifuges will be installed or new enrichment locations will 
be built during this period. Some of the 5 percent enriched 
uranium and all the 20 percent enriched uranium gets converted 
to oxides.
    In terms of capacity, that is, when Iran is able to produce 
enough weapons-grade UF6 material for a single nuclear 
explosive, the sliding bar will move from 2, 3 weeks to 3 
months as a result of this deal. In other words, Iran maintains 
its semi-industrial enrichment capabilities.
    Construction work in nonnuclear parts is permitted at the 
Arak IR-4 reactor, and reactor component manufacturing proceeds 
elsewhere. The production of heavy water continues. The halting 
of the fuel production at Isfahan and prohibiting of the 
installation of nuclear components delays the commissioning of 
Arak reactor until 2016.
    In November 2003, EU-3, France, Germany, and the U.K., and 
Iran agreed to suspend uranium enrichment and reprocessing 
programs in Iran, implementing provisionally the additional 
protocol, and providing the IAEA with a complete picture on its 
past nuclear program. The verification of details worked out in 
2003 agreement by the IAEA and Iran generally have provided 
IAEA a much wider access than this agreement.
    The 2003 undertaking included, inter alia, access to the 
nuclear R&D not involving nuclear material. An example of such 
access was the IAEA visits to centrifuge mechanical testing, 
but this is in Tehran, Natanz, and Isfahan, and to centrifuge 
component manufacturing facilities, and to key raw materials 
such as high-strength aluminum or maraging steel.
    One of the current challenges the IAEA is facing is to 
establish the actual inventory of centrifuge rotors 
manufactured by Iran. Iran commits itself not to construct new 
enrichment locations, reconvert uranium back to hexafluoride, 
and that it will not construct any facility capable for 
reprocessing. With the access provided currently by Iran and 
the JPA, the IAEA remains limited in its capabilities to 
confirm the statements made to this end by Iran regardless 
whether it is to do with the centrifuges, past centrifuge 
enrichment, laser enrichment, or reprocessing.
    The preamble of this JPA refers to additional steps between 
initial measures and the final step, which include addressing 
the U.N. Security Council resolutions. Those include 
outstanding issues such as related to the possible military 
dimension of the Iranian nuclear program. In other words, Iran 
needs, according to those resolutions, to explain--resolve the 
questions related to all its studies, missile reentry vehicle, 
green salt, and certain high-explosive studies.
    It has to explain why it acquired that uranium metal 
document, which was to do with the manufacturing of a nuclear 
warhead. It has to clarify the procurement and R&D activities 
of military-related institutes and companies, and has to 
explain the production of nuclear equipment and components by 
companies related to the military establishment.
    Without addressing these questions, the IAEA Secretariat 
will not be able to come to any conclusion that all nuclear 
material in Iran is in peaceful use, which is essential in 
building confidence of the international community over Iran's 
nuclear program. To this end, I give in my written statement 
some proposals how to proceed on this way, gradually to set up 
and build this confidence about the peaceful nature of the 
program.
    Then at the end I would like to say that this agreement 
serves an interim stage. It should not be either an end by 
itself or be sustained indefinitely beyond the allotted time 
period up to 1 year without end game in sight. Further 
extensions may also run the risk of proliferation consequences 
in the region when the states see Iran not only maintaining its 
current nuclear breakout capabilities, but slowly advancing 
them, in particular areas which remain unaccessible to the IAEA 
inspectors.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much for your expertise.
    [The prepared statement of Mr. Heinonen follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Mr. Albright.

    STATEMENT OF MR. DAVID ALBRIGHT, FOUNDER AND PRESIDENT, 
        INSTITUTE FOR SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you very much for inviting me today. It 
is a great pleasure to be here. And I appreciate all your work 
that you are doing to try to sort through the proper oversight 
role of Congress, which I personally believe is extremely 
important in this situation.
    I think we have discussed the interim deal of the Joint 
Plan of Action quite a bit, and I think its strengths and 
weaknesses have been identified. I think the real test of the 
Joint Plan of Action is going to lie in negotiating the long-
term arrangements, and that is a process that many are not 
giving a high probability of success. But nonetheless, this 
long-term, comprehensive solution is going to have to create 
meaningful limits on Iran's nuclear program, combined with 
adequate verification sufficient to ensure that any attempt by 
Iran to build nuclear weapons would be detected in a timely 
manner and provide adequate time for an international response.
    Now, the interim deal is, from my point of view, an 
important confidence-building measure, but it certainly has its 
weaknesses, many of which have been talked about. And we 
yesterday published an article on some problems and loopholes 
involving centrifuge R&D, which we think rather than 
criticizing the interim deal, I would argue that that has to be 
fixed in any comprehensive solution; that Iran's ability to 
make advanced centrifuges has to be severely curtailed, and the 
process that they are involved in with centrifuge R&D has to be 
much more transparent, and particularly to deal with some of 
the problems Olli has confronted.
    Also, I want to agree with what Olli said, that the interim 
deal should not continue past its planned lifetime. By itself 
it is by no means sufficient. And if you can't get a 
comprehensive deal, the interim deal is not a substitute in any 
manner.
    Also, I want to say that a real test of Iran's intentions 
in the short to medium term is how it is going to treat the 
IAEA on these issues involving the allegations of Iran's past 
work on nuclear weapons and other military programs. Iran has 
delayed the meeting with the IAEA that was supposed to happen 
in January until February 8. Is it going to delay it again? Is 
it going to--and if it has a meeting, is it going to allow the 
IAEA to go to Parchin and other facilities and meet with people 
so the IAEA can get to the bottom of it?
    Now, on the comprehensive solution, my testimony and our 
studies at ISIS have outlined what we see as a model, and 
certain things have been talked about. Certainly we want to see 
much greater breakout times. To meet our national security 
interests, we think the breakout times should be measured in 6 
to 12 months to allow detection time and response time, and 
that is going to require Iran to remove over 14,000 centrifuges 
at Natanz and Fordow.
    Also, some of my colleagues have mentioned the problem with 
oxide. I mean, the stocks of LEU need to be reduced, 
particularly the 20 percent stocks. Putting them into oxide may 
work in an interim deal, but it doesn't work in a comprehensive 
deal. We all agree that the Iraq reactor, Iran's plutonium 
route to nuclear weapons, has to be blocked.
    Also, we haven't talked a lot about it, but there needs to 
be much greater verification that is put in play. Often Iran 
says, we will accept the additional protocol. We would argue it 
has to be the additional protocol plus. There has to be another 
set of verification conditions in this deal that are going to 
provide much greater transparency of the program.
    The other thing that is also important is to remember how 
long these conditions would last. The administration is talking 
about 20 years. Iran is talking about 3 to 5. I think it is 
very important that 20 years be the minimum, and that the 
administration be held to that minimum. I think if that is 
done, and in a sense Iran would be on probation for 20 years, 
that could provide the confidence that Iran has turned a 
corner.
    One thing that this Joint Plan of Action doesn't deal with 
is how do they in a sense come out of probation; that it is 
right now implied that the conditions would end from one day to 
the next. And whatever the length is, probably some work needs 
to be done to make sure that the conditions are removed only if 
Iran has satisfied certain criteria.
    I think I have talked enough about the verification, but I 
do want to reemphasize that Iran has been very tough on this. 
It has resisted all kinds of verification. It is resisting it 
today. And I think that another test is going to be whether 
Iran is fully cooperative with the IAEA and with the IAEA's 
effort to get to the bottom of all its outstanding issues, 
which are going to require much more intrusive verification, 
and that would be played out over the next several months if 
the comprehensive solution is going to be negotiated by the end 
of this 6-month period.
    Let me just end there. I am sorry. I realize I am over 
time.
    [The prepared statement of Mr. Albright follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to the excellent 
panelists.
    We will begin with our set of questions.
    My first question is why is this deal in secret? Why is it 
that Members of Congress have to go to a supersecret secure 
location, cone of silence, Get Smart kind of place to look at 
the deal? And, Mr. Acevedo, our subcommittee staff director, 
and I did that, and we went into the room, and it is a very 
easy-to-read document. One doesn't have to be as an expert as 
one of our panelists is to understand what is there. It is 
quite eye-opening. I encourage all of the Members to go there 
and read the document. You can't take notes. You can't take it 
out.
    But if this is such a great deal, if this is so good for 
peace and diplomacy in our time, why is it held in secret? And 
do you worry about the details in this plan? Do you worry about 
what may be or may not be in it? I just ask that as a general 
question, because having read it, if the administration is 
proud of it, I think that they should highlight it.
    I will ask the panelists, what is the greatest worry you 
have about this deal? And, Ambassador Wallace, last week there 
were reports that Iran could use the money from sanctions 
relief to fund terrorism against us. What kind of oversight or 
mechanisms are in place, do you know, to ensure that the proper 
and adequate use of sanctions relief funds, and can we follow 
the money once it is released?
    So the secretive nature of the deal; why doesn't the public 
have it; why can't we just have it in an open setting; your 
greatest worry; and can we follow the money? Whoever wants to 
get at that.
    Ambassador?
    Ambassador Wallace. Thank you, Madam Chairman.
    My biggest worry about the deal is that we have 
significantly rolled back the sanctions architecture which all 
of you, both sides of the aisle, have carefully constructed, 
and defied a variety of Presidents over a long time, and 
created the sanctions architecture.
    Mr. Sherman said it quite well in his intervention where he 
said, you have to have ever-increasing sanctions for them to be 
effective. The moment you start dialing them back, they start 
falling away. So we have really undercut dramatically the 
sanctions effort, and the Iranian economy, as I said, is 
blossoming.
    At the same time, we haven't rolled back their nuclear 
program in any material way. No one on this panel, and there 
are true experts on this panel on the complexities of the 
nuclear physics, can show that a single centrifuge has been 
dismantled. Whatever the range of opinions here, if you believe 
in no enrichment or some limited enrichment, it means that Iran 
can only have something like zero to maybe 4,000 IR-1, the most 
primitive centrifuge. That is the range of opinion probably at 
this table. I don't want to speak for my colleagues. What are 
the chances that Iran is going to dismantle 15,000 to 19,000 of 
its centrifuges? I say none.
    So my worry is that the interim agreement becomes the 
permanent agreement.
    Ms. Ros-Lehtinen. Thank you.
    Any other panelists?
    Mr. Jones.
    Mr. Jones. Can I just say with regard to the terms being 
somewhat secret, this does bother me, and not necessarily for 
the reason you think. It appears to me that the administration 
has negotiated an agreement it doesn't fully understand, and I 
don't understand how that can happen, because obviously there 
are technical experts in the national labs who know as much as 
I, if not more. But it is clear there are various places, and 
one is the 3.5 percent enriched uranium stockpile won't grow, 
which is obviously not correct. Another is that disconnecting 
the tandem cascades would prevent Iran from producing 20 
percent, where we know that they originally produced it with 
single cascades, which was what they would be left with.
    So I am left with the impression that the administration 
doesn't really understand what it has negotiated, and that I 
find most worrisome.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Heinonen?
    Mr. Heinonen. Yes.
    About the document and the secret agreement, actually it is 
not very unusual in this. I think there are similar 
understandings where at the time of the Agreed Framework with 
North Korea. So we have seen those before.
    When I look at the technical explanations, where this 
really--especially the White House, I didn't see any reason 
technically to keep those provisions secret. But there might be 
some other parts which I just don't know because I have not 
seen the document and how big it is. But I think it would 
clarify a lot of areas if it is made public.
    Then the second thing, my worries. I think that I mentioned 
my worries in my opening statement, and particularly really 
this becomes a kind of final agreement, or agreement which has 
a long life expectancy, because we really don't get any insight 
to the content of the Iranian nuclear program with this deal. 
It is better than what was a year or 2 ago the situation, but 
it is not the final solution.
    And I still want to remind from the verification point of 
view that every day when the IAEA doesn't have access to this 
so-called military dimension, it would be more and more 
difficult for it to verify what actually took place.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    And, Mr. Albright, we will have to wait for your statement 
maybe in another set of questions from my colleagues.
    And I would like to encourage our members to please go and 
read the document. I encourage you to do so.
    And before I recognize Ranking Member Deutch, I hear that 
his older brother is in the front row; is that right?
    Mr. Deutch. That is correct.
    Ms. Ros-Lehtinen. You told me he was your younger brother.
    Thank you so much. Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. That is one I don't 
believe that I will live down for a while.
    That is right, Ranking Member Sherman points out he does 
have more hair than his younger brother.
    Mr. Sherman. Not that I would notice.
    Mr. Deutch. I wanted to just follow up with Mr. Albright. 
If I understand correctly, the quote that I referred to in my 
opening statement about Parchin being a huge site dedicated to 
the research, development, production of ammunition, rockets, 
and high explosives, which is owned by Iran's military industry 
and has hundreds of buildings and test sites, is one that came 
from your organization; is that correct?
    Mr. Albright. Yes. We have looked at that quite a bit.
    Mr. Deutch. So if you could just speak to what is, I think, 
the crux of all this entire debate. This is not about just the 
centrifuges that are spinning, this is about how to prevent 
Iran from acquiring nuclear weapons. And that statement and 
Parchin seems to be right at the heart of this, and yet we 
don't yet have the details behind.
    Mr. Heinonen, you just alluded to this as well. What do we 
have to see there? How likely is it for the Iranians to have 
completely swept clean Parchin? And when we talk about Iran 
coming clean on the possible military dimensions, what is it 
that they have to provide; and are there examples of other 
regimes in similar circumstances who have faced this question, 
and what have we expected from them?
    Mr. Albright. I think Parchin, there is a site there that 
is alleged to have been engaged in high-explosive work related 
to nuclear weapons development. The IAEA has evidence of it. It 
asked to go for over 18 months and has been denied. And in that 
time Iran has significantly modified the site to the point 
where it may not be possible for them to take environmental 
sampling and find something.
    But I think the key thing is, one, Iran has to allow the 
visit, and then they have to allow the follow-up. It is not 
just a visit. I mean, the IAEA will come, they will do things 
that Iran will have to allow them to do, and then they are 
going to have to give them access to the people involved, based 
on IAEA information at least, and answer the basic question, 
did they do this work.
    Mr. Deutch. When were the previous inspections?
    Mr. Albright. They have never been to this building, or to 
this particular complex. They have been to Parchin, Olli can 
talk about that, but it was a long time ago, and the 
information available was much less complete than it is now. 
And so I think the focus now is on this particular site of high 
explosives.
    Now, you asked there is other sites, too. There are sites 
involved, workshops that are alleged to have made reentry 
vehicles prior to 2004. The IAEA has asked to go there in the 
past and has not been allowed.
    So I think in cases where it has worked, Libya, South 
Africa, the country cooperates, and in that cooperation you can 
see that it can work out, and that IAEA can do its job. Iran 
has not shown that level of cooperation.
    And so one of the first things to look for, if Iran is 
going to settle this, is it cooperating, and so that the IAEA 
is able to get the people, gets the information it needs, and 
then is able to ask follow-up questions to get to the very 
bottom of this?
    Mr. Deutch. But we are not operating in the dark here. We 
have a list, presumably, and, Mr. Heinonen, I would ask you 
this as well. We know who we would like--the IAEA knows the 
people that need to be spoken to, correct?
    Mr. Albright. Well, they know some, but they won't know the 
complete list. I mean, it is not possible. I know in the case 
of South Africa, there were people that you wouldn't have 
expected who provided important information.
    Mr. Deutch. But you don't get those other names until you 
start with the ones that we have.
    Mr. Albright. That is right. You need to start.
    Mr. Deutch. So tell us about the discussions that have 
taken place thus far. Have we identified those individuals that 
we wish to speak with? And what is the response from----
    Mr. Albright. Yes, but Olli should really answer the ones 
they have spoken to.
    Mr. Deutch. Please.
    Mr. Heinonen. Actually, those discussions are reflected in 
the IAEA reports, in 2008 March report and then again for the 
June report of 2008. And at that point in time, when we come to 
these so-called or possible military dimensions, we have an 
opportunity to discuss with the first director of that so-
called physics research center which Iran had programmed for 
more than 10 years, but unfortunately he was not able to answer 
all the questions. And then we wanted to see his successor, 
which never materialized.
    So the IAEA has a good understanding of those; also, about 
the people who had procured certain equipment which had been 
used in those experiments; some scientific publications which 
have been published by these people. So there is quite a good 
starting point. And then you start to talk, and look at the 
facts, and go from there and see whom else you might need to be 
seeing.
    Mr. Deutch. But is there--if I may, Madam Chair, have we 
prepared this list and presented it to the Iranians in all of 
the talks thus far? And is there an acknowledgment that, yes, 
those are appropriate questions, and we will make sure that 
these individuals will respond?
    Mr. Heinonen. Well, when you go through an investigative 
process, you don't give the whole list. You start with the key 
persons, and then you work your way from there. So I don't 
think that the IAEA has prepared a very long list at this 
stage; only the starting point and then go from there. But such 
kind of list exists.
    Mr. Deutch. And were those names included in the last 
report?
    Mr. Heinonen. No, only one name, I think, has been in the 
reports, because that is another reason the IAEA doesn't want 
it disclosed for a number of reasons, the names.
    Mr. Deutch. But that name has been disclosed----
    Mr. Heinonen. Yeah, one name has been disclosed.
    Mr. Deutch. Since that would certainly be a good place to 
start, and he has already been identified in the report, has he 
agreed to engage in these discussions?
    Mr. Heinonen. Yes. We met him, I think, twice. But then at 
one point in time, then the process got stopped, and we never 
got to his successor.
    Mr. Deutch. Madam Chairman, just before I yield back, I 
hope later in Mr. Heinonen's responses he might be able to 
elaborate on the comment that he made in his opening statement 
that in 2003 in the agreement there was much greater access 
provided than there is today.
    Mr. Albright. Can I add one thing, though, to add to Olli's 
answer?
    Ms. Ros-Lehtinen. Go right ahead.
    Mr. Albright. One is Mohsen Fakhrizadeh has been 
identified. Olli was talking about Shahmoradi, who ran the 
physics research center. So there are lists of names that have 
been made public. And no, I don't think any of them have ever 
talked about anything to do with the military dimensions. 
Shahmoradi, correct me if I am wrong, Olli, talked about work 
he did as a professor at Sharif University, but he didn't talk 
about the physics research center work.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Mr. Deutch. 
And we appreciate the younger brother being here to get you 
here on time after the votes. Now we know the weapon when Mrs. 
Deutch is not available.
    Judge Poe. That's just the way it is.
    Mr. Poe. Thank you, Madam Chairman.
    I want to say amen to your comments about the deal being 
public not only for Members of Congress, but for American 
people as well, since it affects us. I am perplexed why it is 
not. And I still don't know why it is not.
    Iran is the mischief maker in the Middle East. They have 
the military. Their military is involved in Syria. They support 
terrorism throughout the world. They are sending rockets to 
Hezbollah in Lebanon so they can be fired into Israel. They are 
responsible for the attacks on the Iranian dissidents, the MEK 
in Iraq, over the last several years.
    The Supreme Leader of Iran said that he wants to destroy 
Israel. He wants to destroy the United States. They are 
building intercontinental ballistic missiles. They are 
expanding their conventional war capabilities.
    What in the world are we thinking that they want to deal 
with us and cut back on their nuclear weapon development? What 
incentive? I mean, they might just not be telling us the truth 
that they will cut back. I don't think we should believe 
anything they say.
    Contracts, deals are made when both sides agree, and there 
are inspections, or people act in good faith. The Iranians 
aren't acting in good faith. I don't see any evidence over the 
last few years they have ever acted in good faith. Sanctions 
have worked, and we are now backing off the sanctions. They 
have to be forced not to be able to build nuclear weapons.
    Now, I agree peace is the best answer, negotiations is the 
best answer. Long term we got to do that. We don't want to be 
involved in some type of military action, and we have to 
prevent that from happening. But long term, Mr. Albright, you 
talked about the long-term situation, we look down the road 
months, years, it doesn't look too good for the free world as 
far as nuclear weapons go. I mean these ICBMs, they are being 
built not to go Israel, but to go west, Europe, go to the 
United States.
    So, Ambassador, and I will let all of you comment on this, 
long term how are we going to resolve the problem that Iran is 
determined to have nuclear weapons; what is the answer to that 
question?
    Ambassador Wallace. I guess I will take a first crack at 
that big question.
    President Obama recently said that somehow if we could have 
a nuclear deal with Iran, that it would resolve the sectarian 
tensions that are plaguing the region. I disagree with that 
strongly, particularly since the nature of this deal seems to 
not understand their nuclear weapon program.
    The U.N. Security Council passed several resolutions saying 
that Iran must suspend its enrichment and clarified the 
military aspects that Olli and Mr. Albright were talking about. 
That hasn't happened. So I think that we are a long way away 
from getting to a point where we can use this nuclear file in a 
vacuum to deal with the problems in the region and the like.
    And I remain greatly concerned that we seemingly forgot 
those Security Council resolutions which required suspension of 
enrichment, required a clarification on military dimension. And 
in the agreement it says that Iran will have a mutually defined 
enrichment program in the final deal. I thought that was an 
unfortunate step.
    I don't think that goes a long way to answering your big 
question, but I want to allow my colleagues time.
    Mr. Poe. Well, Ambassador, let me ask you this: Is it 
correct that Iran is developing ICBMs? Is that correct?
    Ambassador Wallace. We have seen a variety of evidence that 
they are looking at the other aspects of obtaining a nuclear 
weapon, which is the delivery capacity, the ignition capacity, 
and the like.
    So we have seen a lot of evidence of this. I think there is 
a really important part of the agreement that hasn't been 
focused on, which is clarifying these other military aspects of 
the program. We haven't heard from Iran about this. They 
haven't clarified that. Those reports are very disturbing.
    Mr. Poe. Mr. Jones, you want to weigh in on this? Give us 
the long-range answer.
    Mr. Jones. Well, unfortunately I am always the party pooper 
at these things. I believe the ship has sailed, that it is too 
late to stop Iran.
    Mr. Poe. So you think Iran is going to get nuclear weapons.
    Mr. Jones. That is correct. And that depresses everyone who 
hears me talk, but that is what I believe, because, as I said 
in my statement, I can't see how there is going to be any 
agreement. I don't see how the sanctions with the Russians, 
Chinese, the Indians undercutting them are going do any good. 
As you correctly pointed out, I am not in favor of getting into 
yet another war in the Middle East.
    Mr. Poe. We have got the Saudis and the Israelis working 
together. Who would have ever thought of this? I mean, the 
Saudis are worried about the nuclear weapon capability of Iran, 
of course Israel is, and they are working together and 
denouncing this deal.
    Mr. Jones. It certainly shows the level of the threat and 
the concern in the region.
    Ms. Ros-Lehtinen. Thank you very much, Judge.
    Thank you.
    Mr. Sherman is recognized.
    Mr. Sherman. Thank you.
    First, if Iran has nuclear weapons, Americans shouldn't 
feel that they are safe even if missile defense worked, because 
you can smuggle a nuclear weapon inside a bale of marijuana.
    Second, the best argument for this agreement remaining 
secret is it must contain wonderful pro-American provisions 
that hardliners in Iran are unaware of. Unfortunately, and I 
know the hardliners look to me for advice and information, but 
we have seen it. It doesn't. So it is peculiar that this 
agreement is not disclosed.
    Nobody wants just one bomb. You are a nuclear power when 
you have got several and you are confident enough to test one. 
In July, Iran will have a certain stockpile of enriched 
uranium. It will have about half its 20 percent enriched, with 
that being in oxide form. It will have its low-enriched uranium 
hexafluoride that it has today, and then it will have an 
additional supply of low-enriched uranium oxide.
    Assuming they don't do anything with the yellowcake, they 
are just looking at the enriched uranium that they will have in 
July, how many bombs is that enough uranium for once they 
enrich it to weapons grade?
    Mr. Jones?
    Mr. Jones. I would estimate around four weapons.
    Mr. Sherman. Four. Okay. And how long would it take them, 
knowing that they can spend the next 6 months doing experiments 
and engineering on their advanced centrifuges, but are not 
making any more centrifuges, as I understand the agreement, but 
they have got what they have got, they are learning how to use 
it better--how long will it take for them to use this stockpile 
of enriched uranium and make four weapons, assuming breakout?
    Mr. Jones. With just what they have got, they get the first 
weapon in about 2 months; the four weapons, I don't know, 
probably 4 or 5 months.
    Mr. Sherman. 4 to 5 months. I will go down the panel. 
Everybody agree with Mr. Jones?
    Ambassador Wallace. I would.
    Mr. Sherman. You do agree.
    Mr. Heinonen?
    Mr. Heinonen. I would like to add to the picture another 
part, which is the unknowns. It is easy to talk about this what 
we see.
    Mr. Sherman. Right.
    Mr. Heinonen. But the most important thing is to register 
the amount of unknowns. Are there additional centrifuges? If 
there are, are there additional stocks? And I think this is 
where the whole focus----
    Mr. Sherman. Based on what we do know, and one of the only 
advantages of this agreement is we are inspecting a few things 
we hadn't been inspecting before, but answering the question 
Mr. Jones did, do you agree with him basically four weapons in 
4 months?
    Mr. Heinonen. I think it will take longer than 4 months, 
but the first weapon will be there in 2, 3 months.
    Mr. Sherman. Okay. And Mr. Albright?
    Mr. Albright. In terms of the first one, in 2 months, 
around that, but I think to get to four or five, I would 
probably just multiply that number by four or five. So you are 
talking about 8, 10 months.
    Mr. Sherman. Okay. So you tend to agree first weapon in 2, 
fourth weapon in 4 to 8.
    I would point out that if we lose this game, it is not 
because of who was calling the plays in the final quarter. We 
didn't field a team for the first three quarters.
    From 1996 to 2010, although this committee did everything 
possible to pass new sanctions, they were stopped by three 
successive administrations. Our effective sanctions against 
Iran began in 2010; their program began 10 years sooner.
    We are now committed to this goal-line stand just a few 
yards from the goal line, and it is not clear which play we 
could possibly call, but we have got three. We have got the 
voluntary sanctions, which is what we have now. That is to say 
we have the sanctions we can get other countries to agree to. 
Then there are secondary sanctions where you basically threaten 
a cutoff of world trade if they don't radically change their 
laws. The Iran Sanctions Act calls for that, but we don't do 
it. And then finally there is the prospect of military action.
    If we took military action, would we be able to turn into 
rubble the centrifuges at Natanz and Fordow; do I have an 
answer? Mr. Jones?
    Mr. Jones. I discuss that in my written testimony.
    Mr. Sherman. Uh-huh.
    Mr. Jones. Unfortunately, the centrifuges are quite 
resistant to bombardment because you have at Fordow 96 parallel 
cascades----
    Mr. Sherman. Uh-huh.
    Mr. Jones [continuing]. That can run. So you certainly you 
take out some. A bombing raid, and we saw this in World War II, 
you knock out the utilities, the plant goes down. But how 
quickly can it get back? And it turns out fairly fast.
    Mr. Sherman. Let me put up one other thing. And then the 
final possibility is that we threaten to hit every oil field 
and industrial and strategic target in Iran if they don't allow 
Mr. Wallace to go in with 400 experts, along with the entire 
panel, and just clean out everything.
    Ms. Ros-Lehtinen. Thank you, Mr. Sherman.
    Mr. Sherman. And I don't think I have time to ask for your 
comment on that, so you can respond in writing.
    Ms. Ros-Lehtinen. Thank you.
    Hold that thought, Olli. Thank you.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair.
    And thank you, Mr. Sherman. I thought those were great 
questions.
    And to the panel, thank you for being here. I am having a 
hard time actually figuring out what the United States got out 
of this. I mean, you know, the Iranians got a lot. They 
basically got an implicit right to enrich uraniun, and we have 
allies that are begging us in 3-2-1 agreements to be able to 
enrich uranium.
    We say no to allies, but then to enemies we basically give 
them the right to enrich uranium as a reward for doing it the 
wrong way. I mean, I guess I am really having a hard time 
figuring out anything that the United States gained besides 
being able, I guess, for the next year to go in front of the 
American people and say that we won something, but then that 
will only be proven wrong by history.
    This, to me, is like the equivalent of a police officer 
pulling somebody over for DUI, and the person in the car is 
saying, well, Mr. Officer, I will be happy to pull over, but 
you have to let me have the keys in the car with the engine 
running, and I am not going to get out. And then the officer 
saying, you know what, that sounds like a fair deal. That is a 
good deal for me. So I am having a hard time with that.
    I also, you know, think back to what happened in North 
Korea. And I remember the agreement that was hailed as, you 
know, the peace in our time of the Korean nuclear agreement in 
North Korea, that they were going to not have a nuclear weapon. 
And, in fact, I remember reading some of the editorial papers 
that basically said this was a huge victory against the 
warhawks and the people that said diplomacy could never work. 
And then a year later, North Korea has nuclear weapons, and 
that is something we are dealing with today. And that, I think, 
is a regime that, as threatening as they are, are probably less 
threatening than what would happen if the Iranians got nuclear 
weapons.
    And I think of how the sanctions went down even in--and I 
know Iraq is a touchy subject, so not talking about the war in 
2003, but the inspection regime in the 1990s, and this cat-and-
mouse game that occurred and everything like that. So I am 
trying to figure out what the enforcement mechanism on our end 
and the motivation to prevent Iran from playing the cat-and-
mouse game. And the second they do, is this a matter of, okay, 
well, the deal is off, and we are back to the full sanctions? 
But I get no indication that that is the case either.
    I want to ask the members of the panel both about the North 
Korean parallel here and something we ought to be concerned 
with, and your words of wisdom on that. But also, if you think 
back to when we have used sanctions in the past, times that 
they have been successful and times that they have not been 
successful, pulling the trigger on relieving sanctions too 
early, I think, leads to unsuccess. And so I want to know if 
any of you all have an example of that, or maybe even a counter 
example to what I am saying. Maybe pulling the trigger early 
has helped. And then also discuss the North Korean parallel.
    Ambassador, I will start with you.
    Ambassador Wallace. Sure. I will try to get at the 
sanctions question and leave it to my colleagues on some other 
previous examples.
    Look, I think we did pull the trigger well too early on 
sanctions here. I am not a sanctions apologist. I run a group 
that engages in economic pressure and engages in sanctions 
promotion, but they don't always work. Actually, this committee 
and this Congress showed that they were working in the context 
of Iran. Iran's economy was veering toward the red zone, and I 
think that we blinked, unfortunately, 4 to 6 months too early.
    There are many more examples of sanctions not working 
historically than they have worked. I would argue that our 
sanctions on Iran were maybe the most effective, but we 
unraveled them too quickly. There is no secret here. There are 
only four tools in the tool shed: Sanctions, diplomacy, a 
military option, and covert action. A serious foreign policy 
would engage in all of them. Unfortunately, we just dialed back 
the sanctions when they were just about to have the great 
fundamental impact.
    Mr. Kinzinger. It is like, in essence, if you look at those 
old 1980s shows when, you know, the investigator always should 
punch the bad guy one last time, and you know it, and he walks 
away and the bad guy gets up.
    Mr. Jones.
    Ambassador Wallace. A Roadrunner episode is coming to mind.
    Mr. Jones. I want to first say that much of what you said 
sounds like you were reading off my sheet here.
    Mr. Kinzinger. Maybe I was.
    Mr. Jones. Thank you.
    But on North Korea, I want to point out how these failures 
are damaging U.S. credibility worldwide. I was discussing Iran 
with some Canadian intelligence analysts a while ago, and I 
gave my pessimistic views on Iran, and one of the Canadians 
said, but the U.S. administration said they are not going to 
allow Iran to get nuclear weapons. And before I could say 
anything, one of the other Canadians said, that is what they 
said about North Korea, too. And these are our friends.
    Mr. Kinzinger. Well, and I also think the administration 
would probably have never said that Fallujah would be taken 
over by al-Qaeda again when they left, but that is another 
issue.
    I guess maybe briefly the last two. My time has expired, 
but if you would just real quick.
    Mr. Heinonen. It brings to my mind my discussion in 2003 
with my North Korean counterpart when we were kicked once more 
out from North Korea and I asked, what next? Is it a nuclear 
weapon? He told me that, Olli, don't worry, we will not build a 
nuclear weapon. Plutonium is our weapon. Well, we know now what 
happened, and I think this is exactly the situation with Iran--
--
    Ms. Ros-Lehtinen. We will have you hold that thought just 
because, sir, I have to be fair to everybody----
    Mr. Kinzinger. Thank you, Madam Chair. I will yield back.
    Ms. Ros-Lehtinen [continuing]. And be equally rude to 
everyone and cut you off. Thank you.
    Mr. Higgins is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    I just want to go back to the elections that brought 
Rouhani into office. You know, there were six candidates 
running. Rouhani ran against the policies that created 
international isolation, he ran against the policies that 
created sanctions, and then he won the election.
    Now, Iranian elections aren't like United States elections. 
Rouhani could not have won without the Supreme Leader, 
Khamenei, willing it. In fact, in Iran if you don't get 50 
percent of the vote, there is a runoff. Rouhani got 50.6 
percent of the vote. It tells us that either the Supreme Leader 
is trying to bamboozle the United States into believing that 
Iran is committed to reform, or that the Supreme Leader is 
allowing Rouhani an opportunity to negotiate a deal. But the 
big question is we don't know if it is a deal that we can live 
with, and we don't know if it is a deal that the international 
community can live with.
    Now, there is three generations of nuclear proliferation in 
Iran. The first one was basically a glorified national science 
project. Iran 10 years ago had 164 centrifuges, which is 
basically the machinery that spins uranium at supersonic speeds 
to produce weapons-grade fuel. Today Iran has 19,000 
centrifuges. It has a multibillion-dollar atomic infrastructure 
that has given Iran breakout capability, which means that Iran 
can produce now weapons-grade material before we can detect it 
and act against it, which is in fundamental conflict with the 
objectives of the United States, and that is Iran will not get 
nuclear weapons, not the containment of a nuclear weapon once 
they get it.
    So the objective of prevention may be lost. And in addition 
to 19,000 centrifuges, Iran also constructed its first heavy-
water reactor for plutonium enrichment, another bomb fuel.
    There wouldn't be this discussion, and Iran wouldn't be at 
the table unless we imposed sanctions, because that is the only 
thing that they respond to. I think if we take sanctions off 
the table, you take away the leverage, assuming that Rouhani is 
sincere about this--he ran the nuclear program for 10 years 
prior to his election as President--and the only leverage we 
have.
    Remember the Iran-Iraq war. They were at war for 8 years. 
It was basically a stand-off. Nobody won. Khamenei said that 
upon basically calling a truce, it was like drinking poison 
from a chalice. Then the United States went in Iraq and did in 
3 weeks what Iran couldn't do in 8 years, and guess what Iran 
stopped doing? Enriching uranium.
    So, you know, we have been through this, and I think the 
United States gets played by leaders in Iraq. They push us away 
when they are doing well; they pull us in when they are being 
challenged. Same in Afghanistan and the same in Iran.
    I think we need to be very careful as a Nation before we 
begin to provide relief from sanctions because the Iranian 
economy is a mess. It dropped 6 percentage points last year. 
They don't even have the capacity to refine the oil that they 
produce for so many other countries. Europe stopped buying oil 
from Iran. China, who continues to buy oil from Iran, said, we 
will continue to buy it from you so long as it is deeply 
discounted, which further hurts Iran.
    Now, there are 90 million people in that country, the vast 
majority of whom are under the age of 30. They are sick and 
tired of these repressive regimes, and because of social media, 
Twitter, the Internet, YouTube, they see how the rest of the 
world is living. And the tools of social media are not only 
used for aspirational purposes and seeing how everybody else is 
living, but it is used highly effectively for organizational 
purposes.
    Iran was always good at suppression. Tehran is not like New 
York City, it is like Los Angeles. It is spread out. But the 
regime was always good at keeping people down. So I just think 
that we need to be very, very careful.
    I know that I went on a little bit longer here. So I just 
ask a brief comment.
    Ms. Ros-Lehtinen. Thank you. Maybe we will have them 
comment in someone else's answers.
    Mr. Higgins. Okay.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Higgins.
    Mr. Perry is recognized.
    Mr. Perry. Thank you, Madam Chairman.
    Gentlemen, just a couple quotes because I think they bear 
repeating over and over again. And this is a key quote out of 
Iran earlier in the decade:

        ``The dilemma was if we offered a complete picture, the 
        picture itself could lead us to the U.N. Security 
        Council, and not providing a complete picture would 
        also be a violation of the resolution, and we could 
        have been referred to the Security Council for not 
        implementing the resolution.''

    And then the next one just from last week when President 
Rouhani said, as Judge Poe already indicated, ``The Geneva deal 
means the surrender of big powers before the great Nation of 
Iran.'' And in that context it seems to me that all the of the 
American people, liberals, conservatives, Republicans, 
Democrats, people that don't care, can see exactly what is 
happening here, and the only folks that genuinely support this 
somehow come out of academia with some hope for a better 
solution that is not based in reality.
    My first questions, I guess, would go to Mr. Albright. It 
seems like you are kind of in favor of the deal, but I just 
want to get your context. Do you understand it is a deal about 
nonproliferation? Is that what we are trying to get to? And is 
it your opinion that it gets us a little closer to 
nonproliferation? As quickly as you can.
    Mr. Albright. The goal of the deal is to ensure that Iran 
does not get nuclear weapons. But again, it is the 
comprehensive solution that would get this, not the interim 
deal.
    Mr. Perry. Right. Right. But we don't trust these folks, 
and they have no reason to have our trust. They haven't done 
anything to earn it over a period of time.
    Mr. Albright. That is right.
    Mr. Perry. Now, there is this 3-year study recently 
published by the Pentagon that intelligence agencies are not 
yet organized or fully equipped to detect the development of 
nuclear weapons or the ramping up of existing arsenals in 
foreign countries. Are you familiar?
    Mr. Albright. Yes.
    Mr. Perry. So with that in mind--have you ever been to 
Iran?
    Mr. Albright. No, I have not.
    Mr. Perry. I mean, you have seen it on a map. It is a big 
country, right? I mean, it is----
    Mr. Albright. I have studied it a lot.
    Mr. Perry. Yeah. Hard to find big things and little things 
in----
    Mr. Albright. But one thing, that study, you have to 
remember in Iran the Intelligence Community has done pretty 
well. It has exposed many secret sites.
    Mr. Perry. Many, which is great. But there is not a lot of 
margin for error. So do you think the elements of the Joint 
Action Plan and the implementation agreement can be adequately 
verified under the current context?
    Mr. Albright. I think, well, the interim deal is limited 
steps. Yeah, I think that can be adequately verified. I think 
many things that are important are not included in that, and in 
order to verify those, there is going to have to be a great 
deal of stepped-up verification.
    In terms of the Intelligence Community, certainly any 
efforts to improve their abilities is good, but I would say 
that on----
    Mr. Perry. But by your own testimony, didn't you already 
say that earlier this month Iran has already been somewhat 
intractable and nonresponsive or not interested----
    Mr. Albright. Well, and that is right. But you asked me if 
it can be done. I think it can be. And one of the verification 
conditions is are they cooperating.
    Mr. Perry. Yes. In the context that everything in the world 
is possible, anything can be done.
    Mr. Albright. No, no, it is not possible. If Iran is not 
cooperative, they are not abiding by----
    Mr. Perry. Right.
    Mr. Albright [continuing]. The verification conditions, 
then that is an early test of whether they intend----
    Mr. Perry. But again, we are working within the context of 
there is no--in my mind anyhow, especially if you live in 
Israel--no margin for error.
    Mr. Albright. I have lived in Israel. So I think there is 
plenty of room to design a verification regime.
    Mr. Perry. But you are not in Israel now.
    Mr. Albright. Well, obviously not. But there is plenty of--
--
    Mr. Perry. Okay. Okay. So, Ambassador Wallace, have we 
already moved from prevention to containment?
    Ambassador Wallace. I certainly hope not, but it is 
certainly looking that way.
    Mr. Perry. How is that measured? Do we know how that is 
measured?
    Ambassador Wallace. I would just say, particularly with the 
expertise on this panel, absent countries that fully and 100 
percent cooperate, there is no such thing as verification that 
works.
    So we are deluding ourselves in the context of Iran that 
additional protocol plus--I don't want to speak for my 
colleagues--is all great to ask for, but absent 100 percent 
cooperation, verification equals bomb.
    Mr. Perry. Right.
    So back to my other question regarding containment or 
prevention, because we have been told by this administration we 
are going to prevent, we are going to prevent, we are going to 
prevent.
    Ambassador Wallace. I have worried about this.
    Mr. Perry. Have we moved to containment?
    Ambassador Wallace. If we had made this deal 10, 15 years 
ago and locked in at a very early stage of Iranian nuclear 
program, I would say we aren't containing. Now it sure looks 
like we are containing.
    Mr. Perry. Mr. Jones.
    Mr. Jones. As I said, I think the ship has sailed. We are 
to containment.
    Mr. Perry. So when did we get to containment, in your 
opinion?
    Mr. Jones. In, I don't know, maybe 2008, 2009. I mean, you 
know, it was a gradual process as they add more and more.
    Mr. Perry. Could we, if we kept the sanctions present, 
could we have gotten--if we got to containment in 2008 and 2009 
and didn't admit it, if the sanctions would have continued, 
would we have been able to get back to prevention, in your 
opinion?
    Mr. Jones. Well, if we had the sort of sanctions we are 
talking about now back then or maybe 2006, I think so. Now I 
think it is too late.
    Mr. Perry. Thank you. Thank you, gentlemen.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chair.
    I want to thank the witnesses for being here today, for 
sharing your insights. I want to thank you for what you all do 
every day. I don't think a day goes by where I am not reading 
something from UANI, from ISIS, from Belfer, many days from all 
three. So thank you.
    I have said before, you highlighted here, the Joint Plan of 
Action is an agreement fraught with dangers, some--Olli, as you 
said, some known, some unknown. But I thought the point was 
well taken that the real test of these negotiations is not the 
Joint Plan of Action, but the final comprehensive agreement, in 
my words, ending Iran's nuclear ambitions and rolling back and 
dismantling their nuclear programs, and that is what we have to 
work towards.
    I consider the Joint Plan of Action, it is necessary that 
it not be allowed, as you have all said, to extend beyond its 
parameters, ideally 6 months, at the longest 12 months. We just 
block and then close any and all pathways for Iran to get a 
nuclear weapon; not just plutonium pathway at the Arak reactor, 
I believe, the uranium enrichment, both in centrifuges and in 
laser. And as Mr. Heinonen said, we must address the military 
aspects. What you said in your testimony, a comprehensive deal 
can only be reached if uncertainties over Iran's military 
nuclear capability are addressed. I think that is crucial.
    Mr. Albright, you wrapped up your written testimony, and I 
think it is worth restating. An adequate comprehensive solution 
will depend on the United States and its allies now making 
clear to Iran what is required of it, and that this is indeed a 
pivotal moment.
    I guess this is where I come in with my question to you all 
is as we talk about passing a resolution in the House, 
extending what we passed last summer on the Nuclear Iran 
Prevention Act, I am worried that if at 6 months, 12 months we 
are not quite there, the question will be, the argument will 
be, don't do more sanctions now because we are close. I am 
worried that 12 months from now, if we are almost there, but 
not quite, the argument is going to be we must wait now. I am 
further worried that as we sit here today, if we can clearly 
and transparently indicate to the Iranians not just what is 
expected, but that the sanctions that will follow a failure of 
these negotiations will be orders of magnitude greater than 
what they faced when it brought them to the table back in 
November, that that makes it easier to stay on this path to 
peacefully ending the nuclear ambitions.
    I guess my question to the panel--and, Mr. Albright, I will 
start with you--is if the administration--or if the Congress 
passes a resolution in the House that says this is what we 
intend to do if we can't go down this path, but we want to stay 
on the path that will peacefully end in a comprehensive 
solution, why is that not a good strategy?
    Mr. Albright. I personally think it is. I think it is 
important to lay out the criteria that the agreement should 
reach or should ascribe to; that, in a sense, minimum 
conditions need to be laid out. I think it would be very 
useful. I think it would certainly clarify things to Iran. It 
would also make sure that the administration understands what 
the minimum conditions are, because, again, in the heat of the 
moment, there are tendencies to make compromises. So I think 
Congress has a very important role and hope that it can work to 
lay down basic conditions the agreement should reach.
    And I think the Senate started that in the recent 
legislation introduced, and that can be extended. And I hope it 
is done, because Iran is certainly doing it. I mean, it is 
doing it privately inside of Iran, I am sure, and it is doing 
it publicly.
    Mr. Schneider. Ambassador Wallace.
    Ambassador Wallace. Remember what we are talking about 
here. We are saying we are not going to do business with you. 
We are going to close our pocketbook. We are not invading them. 
We are just simply saying, we don't like your policy. We are 
going to close our pocketbook. Somehow that is being turned 
into warmongering. Somehow that is in debate.
    I don't know about you all, but if somebody does something 
that I don't like, I don't want to do business with them. We 
shouldn't do business with Iran. That is what we are debating 
here. Is that so controversial? We cannot allow partisanship to 
enter this debate and say that we are somehow warmongering 
because we don't want to open our pocketbook.
    Mr. Schneider. Mr. Heinonen.
    Mr. Heinonen. Actually I agree with what both of these 
gentlemen say, but in a somewhat a different way, if I may say 
so. First of all, I think it is important to put the red lines 
there and say what the United States of America wants from 
Iran. That needs to be a clear-cut message, because Iran says 
at the same time, no one centrifuge will be dismantled; we 
won't quit building our reactor. So it is important for the 
discussion. But having said that----
    Ms. Ros-Lehtinen. Having said that, I am going to interrupt 
you yet again. I am rather disciplined with the time, because 
we are going to be voting, and then members won't have the 
time. Thank you, sir.
    Mr. DeSantis, my Florida colleague.
    Mr. DeSantis. Thank you, Madam Chairwoman, and thanks to 
the witnesses.
    Ambassador Wallace, I appreciate that last comment. I mean, 
when I am hearing these things and people say that trying to 
move forward with sanctions is tantamount to saying that we 
need to invade Iran to me is just not acceptable.
    The President said not too long ago that he thought the 
chance of a deal actually succeeding was about 50/50, and, to 
me, I was really alarmed by that. I mean, here is the guy who 
is supposed to believe in what they are doing, and he still 
thinks it is essentially a coin toss.
    It just seems to me that understanding the nature of this 
regime, we may never be able to actually have an agreement that 
works, just given who they are, but why would you go easy on 
sanctions? Seems to me the way would be to apply more pressure 
on them, show them that we are serious about this, and maybe 
they would be able to reevaluate whether it is actually in 
their interests.
    And it has been mentioned earlier, but some of these 
military sites likes Parchin, you know, Ambassador Wallace, it 
doesn't seem to me that we would be able to really monitor what 
goes on there.
    Ambassador Wallace. You are right. Absent cooperation, we 
wouldn't be able to.
    I want to give some of my time to Olli because he was cut 
off a couple of times. But I was talking about sanctions 
previously and how wonderful in a bipartisan way this committee 
and other Members of Congress have said what sanctions should 
be. Now I respectfully implore you all to say what are your red 
lines on enrichment, on the heavy-water reactor and the like. 
Olli was about to refer to that, I think, in his testimony, but 
I have had the privilege of testifying before you all many 
times. I have never asked something of you like this, but 
please, each one of you should go on the record with the 
President, the future President, as to what your red lines are. 
That is important that Congress speak with a unified voice. I 
beg you to do that.
    I defer to Olli. Olli, you need to get in there.
    Mr. Heinonen. Thank you.
    What I wanted to say that it is not totally about the 
United States of America. It is also about the unity of the 
international community, and more needs to be invested to P5+1 
and get the Russians and Chinese fully behind it, because 
without them the sanctions won't be a success.
    Mr. DeSantis. So in terms of--and I think that is true in 
terms of what our red lines are. It seemed to me that the 
United Nations had always said that Iran wasn't going to be the 
able to enrich, and now it is like, well, you know, you know, 
well, you can enrich.
    So I think the red line for Congress should be no 
enrichment. I think that is the only way that we can have a 
somewhat degree of certainty that this is something that we can 
prevent from happening in terms of them having a nuclear 
weapon.
    One thing that is odd about this whole agreement and these 
negotiations is nobody is talking about, within the context of 
this, terrorism and Iran's role in international terrorism, and 
I worry. They are a leading state sponsor of terrorism. They 
have committed terrorist acts against the United States going 
back from the Embassy takeover to Beirut, which they were 
involved in. They were attacking our service members in Iraq 
with EFPs. So how can it be that we are just kind of just 
acting like the terrorism aspect doesn't exist? This seems to 
me to be a very serious shortcoming for this agreement. Does 
anyone want to weigh in on that?
    Mr. Albright. Let me just say, I think--I have worked on 
many agreements. I mean, typically the nuclear is roped off. I 
mean, that has been the tradition, but it doesn't mean that the 
terrorism issue can be let lie unsettled. And I think Congress 
is going to have to face--in reviewing the lifting of 
sanctions, it will have to review that condition. My 
understanding is that is part of the law. So I think the 
administration eventually is going to have to answer how it is 
going to deal with that.
    But traditionally these nuclear deals are done in--I don't 
want to say in isolation, but done as cutouts in a sense. And 
it would be up to, in a sense, oversight to decide whether that 
is enough to remove sanctions.
    Mr. DeSantis. I just wonder whether that model is 
applicable to a regime like this that would have been to maybe 
some of these other nuclear powers, and, of course, we have had 
negotiations with countries like North Korea that have ended up 
backfiring on us. So I appreciate that, but I still have a lot 
of concerns.
    So Mr. Jones, I mean, what would you recommend? You say, 
hey, the cat is out of the bag. So what should we be doing in 
Congress if we are somebody who is concerned about this regime 
possessing nuclear weapons? You seem to think that we are not 
going to be able to prevent that at this point, so what should 
our response in Congress be?
    Mr. Jones. I am not sure other than to look at the problem 
more broadly. I mean, look down the road to prevent further 
Irans. We have had a string of failures: Pakistan, North Korea, 
Iran. We are looking at possibly now Saudi Arabia, even Turkey, 
suddenly showing interest.
    Ms. Ros-Lehtinen. Thank you, Mr. Jones.
    Thank you, Mr. DeSantis.
    And Mr. Vargas.
    Mr. Vargas. Thank you very much, Madam Chairwoman. Again, 
thank you for holding this hearing. I appreciate it. And thank 
you to the witnesses.
    I am usually a rather optimistic person, but I am not 
optimistic at all, and I continue to think that this interim 
deal was a mistake. In fact, I think it was a terrible mistake. 
And I hope that I am wrong, but I continue to think it was a 
mistake.
    I think we are naive in these negotiations. I think that 
this notion that these are just a tiny easing of the sanctions 
I think is wrong-headed; in fact, just the opposite, I think, 
that this easing of the sanctions is, in fact, going to allow 
their economy to blossom and to take off. I think it is a 
terrible mistake, and it is going to be very hard, I think, 
afterwards to try to put the genie back in the bottle and get 
these sanctions going once again.
    And another thing that I am very fearful of, I think the 6 
months is going to turn into a year, and then they are going to 
ask for more time, and aren't we close, and it is going to 
continue to slide and to be more and more problematic.
    And, in fact, I think all we have to do is really listen to 
the Iranians themselves on what they are saying. I mean, Iran's 
leaders recently made it very clear that they have no intention 
of coming into compliance with the international obligations in 
the nuclear arena. I don't think they have any intention.
    In fact, I would like to read a transcript very quickly 
here from Fareed Zakaria, who is the host of CNN, and Rouhani: 
``Iran will absolutely retain its enrichment?'' That is what 
Fareed asked. And this is Rouhani responding: ``It is our 
national pride, and nuclear technology has become indigenous. 
And recently we have managed to secure very considerable 
prowess with regards to the fabrication of centrifuges. We will 
not accept any limitations.''
    So Zakaria asked him again, ``So there will be no 
destruction of centrifuges or existing centrifuges?''
    Rouhani: ``No, not at all.''
    I think they have made it very clear where they want to go 
with this. He goes on. They asked him later if it is for a 
nuclear weapon and he says, ``No, no, of course not.''
    He says, ``And to know that when, from a religious point of 
view, religious leaders, to be more specific, the great and 
eminent leader of the revolution, announces and states that the 
fabrication and the stockpiling of nuclear weapons is haram, 
religiously forbidden, this should tell you that we don't want 
to build a bomb.''
    And yet, everything they have done is to build a bomb. 
Everything they have done. Does anyone disagree with that? Does 
anyone believe that what they have been doing so far has been, 
in fact, for peaceful purposes? Does anyone there? Nobody?
    Yes, sir.
    Mr. Jones. Can I add just one thing because that interview 
was very important. And one thing that didn't get quite 
explicated is Rouhani also said that he wants 20,000 megawatts 
of nuclear power and for Iran to provide the fuel for this. 
Well, I did some quick math. That is like 1 million or 2 
million centrifuges, not 19,000. So that gives you an idea of 
what the Iranian view of this is. Thank you.
    Mr. Vargas. No, thank you. And I appreciate that. And I do 
think that--unfortunately, that we eased up on sanctions right 
when they were starting to work. Because I do think that we 
should have put the real question to them, do you want an 
economy, or do you want a nuclear weapons program? And I think 
tightening down the sanctions was the right way to go, and I 
think that it was finally working, and easing up now is going 
to be just the opposite. It is going to be so much harder now 
to get things back on track.
    I would like to ask you, Ambassador, about that. What do 
you think? And I know that you do this every day, but I would 
like to hear you again on this.
    Ambassador Wallace. Sure. I thank you.
    I prepared a quick chart for this. Congressman Deutch and I 
talked about this. But this shows sort of the oil production 
that is happening now on a daily basis in Iran, around $1.2 
billion a day, and presumably going up. This green line shows 
where it would go down to, which would be about 334,000 barrels 
a day, assuming a trending out over the course of the year.
    The next time the administration says that it is truly only 
$6 billion or $7 billion of sanctions relief, ask them this 
question: $27 billion alone just on oil sales, not even getting 
to the Iranian auto industry and the other sectors. I think 
this is a very powerful indication of what the sanctions relief 
is all about.
    Mr. Vargas. Anyone else like to comment on that? Because I 
guess my point would be it is not so much just the $6 billion; 
I think it is more than that. An economy looks at confidence; 
you know, is there confidence in the economy to take off. And I 
think that is the problem here; that all of a sudden the world 
has confidence that these sanctions are going to be lifted. 
That is why their economy is taking off. It is going to be very 
hard to impose sanctions once again.
    Yes, sir.
    Mr. Albright. Yeah, I think that--maybe I am by nature an 
optimist, but the thing to me that seems imminent or urgent to 
do is to send a signal that the sanctions are going to be fully 
enforced, and they are going to be strengthened if time clock--
--
    Ms. Ros-Lehtinen. Thank you very much, and I am going to be 
a disciplinarian. We are going to cut it down to 4 minutes so 
that we can all get our questions in. And I apologize.
    Mr. Weber is next.
    Mr. Weber. Can you cut it down on the next person? Can you 
cut it down on the next person, Madam Chair?
    Ms. Ros-Lehtinen. Yes, of course I can. Thank you. Go 
ahead.
    Mr. Weber. All right. To any of you all on the panel, does 
November 4, 1979, ring a bell? That is the day that they took 
hostages, Iran did, at our U.S. Embassy. Do you know how long 
they held them for? Four hundred and forty-four days.
    Now, so November the 4th will be the 35th anniversary of 
that hostage taking. They have been exporting terrorism for 
almost 35 years. I am going to follow up on what Adam Kinzinger 
said when he said, what is the U.S. getting for this? They have 
been exporting terrorism forever, and what are we getting out 
of this? We are getting told that, as Mr. Wallace said, that we 
are somehow warmongers because we want to strengthen those 
sanctions, because we want to make them come to the table and 
negotiate, and they are about to do that.
    So you all work with me here. Any of you all think that 35 
years is a long time? Simply a yes-or-no question?
    Ambassador Wallace. That is the easiest one I have had in a 
long time. That is a long time.
    Mr. Weber. You all will agree that--is 444 days a long 
time?
    Mr. Jones. If you are a hostage, yeah.
    Mr. Weber. It is a long time, isn't it?
    Now, do you agree with Brad Sherman's comments that ``the 
first three-quarters of this game, we have been missing in 
action, that we are down to the goal line stance''? Do you all 
agree with that? I am getting a no from Albright, I am getting 
two over here, and the guy in the green is just kind of 
contemplating that. He is not admitting to anything.
    But here is the point. If we continue to hold them under 
sanctions for 444 days, we haven't taken their hostages. We 
haven't had an act of violence take them by violence. So if we 
make them toe that line, then we can't be accused of being 
violent or being oppressive.
    By their own words, they want to wipe America and Israel 
off the face of the map. Now, have we threatened to wipe Iran 
off the face of the map, anybody? Have we threatened to wipe 
Israel?
    Mr. Albright, you lived in Israel. Do you have any family 
living there now?
    Mr. Albright. No.
    Mr. Weber. Okay. Mr. Wallace, you said that 100 percent 
cooperation was needed, and we would know that pretty quick if 
we are not going to get that in verification. Should we give 
them 444 days?
    Ambassador Wallace. I am very skeptical. They haven't shown 
any indication they want to cooperate, and there is no 
verification without cooperation.
    Mr. Weber. Excuse me. Mr. Albright, you said we ought to 
lay out minimum conditions earlier in the negotiations. And the 
man in the green, and I can't pronounce your name, you said we 
ought to have a red line. We don't have a real good track 
record on red lines right now. Would you be in favor of 
military action if those red lines are passed? Would it be one 
of the conditions, Mr. Albright?
    Mr. Albright. For the red lines on the comprehensive 
solution, no, no, of course not. The red line that has been 
articulated by President Obama is that they be prevented from 
getting a nuclear weapon.
    Mr. Weber. Yeah, well, since they saw us bomb Syria, with 
President Obama's red line, they know how serious we are.
    Mr. Albright. Well, the threat of military strikes has to 
be credible, and the U.S. is going to have to reestablish that 
credibility if it wants to deal with Iran.
    Mr. Weber. Yeah, well, we don't have a lot of credibility 
with the threat of red lines. I am just----
    Mr. Albright. Well, Syria is not Iran.
    Mr. Weber. Well, I understand that.
    Mr. Albright. I mean, we didn't have a lot of vested 
interest in the----
    Mr. Weber. Mr. Schneider, I am going to follow up on what 
he said. In 12 months we don't want them coming back and 
saying, look, we are almost there. No more sanctions.
    Do any of you all think that Iran is going to be serious 
and that we have 12 months, or are we going to have two bombs, 
four bombs in 12 months?
    Would you want to go over and live in Israel, Mr. Albright, 
right now?
    Mr. Albright. I would, and I don't think that----
    Mr. Weber. Okay. Well, we are going to miss you.
    Mr. Albright. Yeah.
    Mr. Weber. The guy in the green. Would you live over there? 
Anybody else?
    Ms. Ros-Lehtinen. Well, we are done. Thank you so much. You 
had the full 5 minutes.
    Mr. Weber. Thank you.
    Ms. Ros-Lehtinen. And Ms. Frankel is recognized. Thank you.
    Ms. Frankel. Thank you, Madam Chair, and thank you so much 
for bringing this diverse panel. And really, this is very 
complicated, at least it is to me. Some of these other folks 
see it more simple, but I think we all agree that Iran should 
not be allowed to obtain a nuclear weapon, although, Mr. Jones, 
you think they already have one.
    Mr. Jones. Yes.
    Ms. Frankel. Okay. So you agree they shouldn't have been 
allowed, but that is too late. The three of you, the rest of 
you, think they don't have a nuclear weapon, or you are not 
sure.
    Mr. Albright. They do not.
    Ms. Frankel. You think they do not?
    Ambassador Wallace. They do not, but they have the 
capability within 2 or 3 months of breaking out with that 
ability to have a nuclear weapon.
    Ms. Frankel. Okay. And I think everybody here pretty much 
agrees that the interim agreement should not be the long-term 
agreement, right?
    Ambassador Wallace. Absolutely.
    Ms. Frankel. Right? But logic does tell me that, you know, 
in a give-and-take situation, Iran would eventually want all of 
the sanctions relieved; is that right?
    Ambassador Wallace. I think they already have that. I 
think----
    Ms. Frankel. You think they have all the--okay.
    Ambassador Wallace. I think that their sanctions relief is 
far greater than what meets the eye. Their economy is booming 
right now, coming back very strongly. Certainly we could lift 
other sanctions, but we have to send a message that more 
sanctions are coming to stop that growth in the Iranian 
economy. That is a key thing that this committee can 
participate in.
    Ms. Frankel. Okay. So we would expect them to go further, 
give up something further than what is in the interim agreement 
in order to get further relief.
    Mr. Jones. Well, remember, the current agreement says that 
when we finally get done, there is not going to be any 
restrictions on Iran at all. They are going to be treated like 
any other non-nuclear-weapon party to the NPT. That means they 
are scot-free at that point.
    Mr. Albright. Well, not exactly. I mean, I would expect 
embargoes on military goods. I mean, there would be 
counterproliferation sanctions. And again, we are talking--if 
this works as the administration has outlined, we are talking 
about a deal that is extremely restrictive of its nuclear 
program, and the conditions last 20 years. They have dealt with 
the IAEA concerns. Their weaponization or past weaponization 
infrastructure is under verification. They have shown 
cooperation. So I think it is--when the sanctions would come 
off, Iran would have had to have met many, many conditions. And 
so it is not at all like the interim deal.
    Ms. Frankel. And, Mr. Jones, do you rule out or do you 
advocate any kind of military action?
    Mr. Jones. No. I think it would take a full-scale war with 
Iran, and I don't see that the U.S. is in any position to 
embark on such a war at this point, which is why I think there 
is nothing we can do. I mean, if we could take military action, 
then Iran wouldn't have nuclear weapons, or wouldn't have them 
for long.
    Ms. Frankel. Okay. So it is very easy to be the Monday-
morning quarterback. So let me just--it is what it is right 
now. Could you each--my last question is what do you recommend 
we do next, given the situation?
    Ambassador Wallace. Six months from the adoption of the 
interim agreement, this Congress should make clear that Iran 
will face the most robust sanctions in history, and its oil 
sales will go down to nearly zero, its auto industry will not 
be able to function, and their economy will cease to exist. 
That is the message the committee must send in order for Iran 
to dial back its nuclear program, which is a requirement, in my 
opinion, for a final deal.
    Mr. Jones. Well, I don't believe the sanctions are going to 
be nearly that effective. The Russians have already said they 
are going to negotiate a barter arrangement to launder Iranian 
oil. I think the Iranians have options. The Indians have helped 
them as well; so have the Chinese. I am not optimistic.
    Mr. Albright. You know, I think it is important to 
articulate what a comprehensive solution would look like, if 
you want zero enrichment articulated, if you want----
    Ms. Ros-Lehtinen. Thank you so very much. I appreciate it.
    Mr. Cook.
    Mr. Cook. Thank you, Madam Chair.
    Ambassador Wallace, I really appreciate what you say about 
sanctions. I actually believe in them, too. There are always 
variables that are associated with them. You know, my 
background, I was in the military for quite a while, 26 years, 
and we always said the NATO scenario--this is back in the Cold 
War time, and, you know, the threat was always the Soviet Union 
for nuclear war. And after the wall came down, we have never 
had those similar scenarios, and now it has kind of changed 
completely with what is going on with North Korea and, 
obviously, Iran.
    In your opinion, how close, in your opinion, anyone, do you 
think that Iran would--I think we all agree that they are going 
to get the bomb, and many of them. Would they use it, or is 
that just a threat?
    Ambassador Wallace. I think one of the greatest dangers of 
Iran going nuclear are the incredible sectarian tensions that 
are plaguing that region right now and the fact that we will 
have a nuclear arms race in the region. We will take the most 
volatile region in the world and we will make it more volatile 
and nuclear volatile. And if it were me as a leader, if I were 
a leader of one of those countries, the ayatollah and others 
have said that they could conceivably use these types of 
weapons before, I think you have to take them at their word. I 
think you have to take it quite seriously.
    Mr. Cook. Before you answer any more, the reaction of other 
countries. Let's just go with the scenario that they have the 
nuclear bomb. We are talking about Saudi Arabia, some of the 
other Arab States; Arab, you know, Persian, Iranian, the 
animosity between them. Do you foresee many other countries 
that would be very eager to do exactly what Iran did just 
because of what happened? Any suggestions on what countries 
would acquire the bomb in that region?
    Ambassador Wallace. I think it is very clear that other 
countries in the region, again, playing along the sectarian 
lines, would seek to go nuclear. It might take them a little 
bit of time.
    Mr. Cook. Which ones?
    Ambassador Wallace. Saudi Arabia.
    Mr. Cook. Anyone else?
    Ambassador Wallace. I think the Emirates. I think Turkey, 
Egypt, a variety of countries in the region.
    Mr. Cook. So as many as perhaps six?
    Ambassador Wallace. All of them.
    Mr. Cook. Okay. Does the panel share that opinion?
    Mr. Jones. I am not sure I think quite so high, but I would 
also point outside the region. I mean, with North Korea, and if 
the general regime starts to collapse, I think we could be 
talking about South Korea, Japan. I mean, I think this problem 
is broader than the Middle East.
    Mr. Cook. And then the possibility for use of a nuclear 
attack from a mathematical standpoint, if you do the math, 
which is very, very scary, there would be some kind of event, 
as opposed to when I was in the Cold War, it was limited to 
just a few powers.
    Mr. Jones. Well, certainly, I am already, frankly, quite 
concerned about Pakistan. I mean, it looks like at various 
points Pakistan might just dissolve and break into some sort of 
Islamist sectarian fight, and who knows who would wind up with 
the weapon. Same thing with North Korea.
    Mr. Cook. I just wanted to----
    Mr. Albright. I think it shows why it is so important to 
prevent Iran from getting nuclear weapons.
    Mr. Cook. And I agree with you, and I just--you know, trust 
and verify, and going down this road, it shows just how naive 
we are, and the consequences are enormous. And I hope this body 
here, which seems to be one of the few that is addressing this, 
will continue to fight for that action.
    Thank you, Madam Chair, I yield.
    Ms. Ros-Lehtinen. Thank you very much. And although votes 
have started, we have two more members who are going to ask 
questions, so we are fine with the time. I didn't cut anyone 
off.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman. And welcome to the 
panel.
    My colleague just referred to naivete. I am not sure what 
he was referring to. To support an interim agreement that is 
supported by a number of the players, main players, trying to 
get Iran to desist might be wisdom rather than naivete. We 
don't know yet.
    Mr. Heinonen, were you involved at IAEA in any of the 
negotiations with Iran, or discussions with Iran, or 
verification experiences with Iran?
    Mr. Heinonen. Yes, I was, indeed. I visited a number of 
times there, maybe 20, 30 times.
    Mr. Connolly. Is it your impression, based on that 
experience, that Iran is hellbent on getting nuclear weapons, 
and that an interim agreement such as the one successfully 
negotiated is merely a stalling tactic until they reach their 
ultimate goal?
    Mr. Heinonen. I think there is one more scenario here, and 
this is that Iran pushed its enrichment capability to such a 
level that it is not in--breaking its safeguards obligation, 
but may not be in the spirit of the NPT. And this will be the 
most difficult situation for the international community to 
handle.
    Mr. Connolly. Were you surprised, based on your knowledge 
and experience in Iran, that they agreed to this interim 
agreement?
    Mr. Heinonen. No, I was not surprised, because I have seen 
them following this partial, small deal, small step at a time, 
agree on something, and then back off and agree again. So this 
is in the pattern. But now we need to break this pattern, and 
this is for the red lines that the resolutions and in my mind 
comes to the picture.
    Mr. Connolly. Ambassador Wallace, you talked about the 
complete shut-down of their economy. One wonders whether that 
is possible, but certainly their economy has hurt. Based on 
fairly--about--I mean, I am old enough to remember sanctions 
going way back on all kinds of countries, and with a spotty 
record. I mean, sometimes sanctions work pretty well, sometimes 
they don't. And it is not clear to me that they are always an 
efficacious tool of foreign policy, but they certainly are a 
tool available to us, and in this case it looks like it has had 
a desired effect.
    I assume that your concern is that, with the best of 
intentions with an interim agreement, that we take our foot off 
that pedal a little bit and ease back on sanctions, if not the 
United States, others, and that that obviously would be a 
counterproductive development until we see their performance in 
this agreement and their willingness to now finalize an 
agreement 6 months hence.
    Ambassador Wallace. I think that is right, Congressman. My 
concern is not just the foot off the gas, though, but I think 
we really dialed back the sanctions regime, and their economy 
is flourishing. We measure their currency, we measure their 
inflation, we measure their stock market, and it is booming. 
And I am concerned that the very little concessions that we 
got, no real rollback was met with a dramatic rollback of the 
economic pressure so that they had an economic boom to their 
economy. And I think my concern is, and I am certainly being 
effusive, you can't shut down their economy. We can certainly 
get their oil sales down to a few hundred thousand barrels, and 
we should try.
    Mr. Connolly. But until very recently, all of the reports I 
saw were that they were having trouble moving their oil in 
international markets.
    Ambassador Wallace. The low point was about 761,000 barrels 
a day. Right now it has already gone up to 1.2 million barrels 
a day and even higher.
    Mr. Connolly. Excuse me for interrupting, but is that 
because of some of the carve-outs in the agreement for India, 
for example, and some others?
    Ambassador Wallace. It has been--actually if the carve-outs 
were kept in place, the reduction of oil sales would go down to 
about 334,000 barrels. Right now we are on a trajectory of 
between 1.2-plus over the course of this year. That was in 
anticipation of the agreement and the agreement itself. So you 
have seen a huge economic windfall for the Iranians.
    Mr. Connolly. My time is up. Thank you, Madam Chairman. 
Thank you.
    Ms. Ros-Lehtinen. And you are an ex-Senate staffer. You 
forgot.
    Mr. Connolly. It is not something I bring attention to, 
but----
    Ms. Ros-Lehtinen. Inside joke here.
    And to wrap up, Mr. Collins, I am expecting big things from 
you.
    Mr. Collins. Well, we thank you for being here, and we will 
get to it. Thank you, Madam Chair.
    Look, I think the interesting comments right there in just 
that last conversation was Iran would take a little, and then 
they would back up, take a little and back up. And then Mr. 
Wallace just pointed out they are now--and now their economy is 
doing well. It is even more incentive just to back up and say, 
well, we can't get there right now. Can we get a little more 
time? And I think that is the concern that most of us have here 
is the sense of, as has been said earlier--and I am not going 
to rehash it, because I have got a more specific question--when 
you look at it, we, frankly, did not get anything from this. 
They got what they were looking for, and I think the only 
reason we got to the place to start with was the sanctions were 
having an effect. So we have to look at it from a different 
perspective.
    I want to get a little more technical, and anyone can 
answer this question. Three basic steps needed to produce a 
nuclear weapon. You know, a primary fissile material, 
sufficient quantity and quality for the nuclear device. You 
have to have a weapon that will survive a nuclear warhead and 
produce an effective means for delivering the weapon. So I have 
a question. What is known of Iran's development of the delivery 
method for a nuclear warhead, and what type of delivery 
mechanism would be needed to develop to target Israel or the 
U.S.?
    Mr. Albright. Their ballistic missile capability is pretty 
robust. What is not known, do they have the ability to put a 
warhead on that ballistic missile, and there are divisions 
whether they can actually do that.
    Mr. Collins. Okay.
    Mr. Albright. Eventually, they would be able to if they 
went down that route.
    Mr. Collins. Right.
    Mr. Albright. Can I say, though, I don't think we got 
nothing for this deal. I mean, I don't want to get into a 
debate. I am sure you did last week with the administration, 
but we did get something, and so I think that has to be----
    Mr. Collins. Messed over I think would be a good----
    Mr. Albright. No, I think progress was stopped. Freeze is 
worth something. And so I think there were benefits to this 
deal, and we can argue the value in terms of sanctions, and I 
think we are all worried about the sanctions slipping more than 
the administration intended.
    Mr. Collins. No, actually I am not worried as much about a 
sanction. I am worried about a nuclear Iran.
    Mr. Albright. Well, I think we all are.
    Mr. Collins. I think we are in disagreement in 
understanding what that--and I will happily, you know, concede 
your point and my point--but I think one of the things that is 
of concern here is if we are looking toward this, let's look at 
the overall of the pattern of what is developed. You have an 
opinion that it worked; I have an opinion that it doesn't. And 
I think the concern is that a nuclear Iran that has this 
capability here which I am concerned about from an actual 
projection and actual use of a nuclear material to actually 
provide a warhead that actually can be used against Israel and 
actually be used against the United States. That is my 
question.
    Mr. Albright. Yeah.
    Mr. Collins. And my next question, if targeted with a 
nuclear warhead, what deterrent, if any, does Israel have?
    Mr. Albright. Israel is in a bad situation. I mean, it is a 
nation that one or two nuclear weapons, if they had sufficient 
yield, can almost end its existence. I mean, for Israel, it 
truly is an existential threat, and I think we would argue that 
we have to work harder together to keep Iran from getting 
nuclear weapons.
    Mr. Collins. You also have to agree, and from your end it 
is not just a threat to Israel, it is a threat to us. We have 
assets in that region that we can't overlook. We think about 
Israel, and other members of this committee have worked very 
hard on our partnership with Israel and helping Israel, but we 
also can't just neglect ourselves from this. We have assets. I 
served in Iraq. We still have got military people there. This 
is something we can't do--take apart.
    Ambassador Wallace. Congressman, you are right, and since, 
as you know, you served in Iraq, most of the various site 
casualties that occurred in Iraq were as a result of Iranian 
meddling. Right now nothing--one big absence in this hearing 
was Iran's role in Syria. Many, many, if not a vast majority of 
the casualties that are occurring are occurring as the result 
of Iranian largesse of arms and money. So we haven't even 
touched on that part of the Iranian--I don't think we mentioned 
Syria one time in terms of Iran's support of Syria in this 
hearing.
    Mr. Collins. Well, and how much they got out of this deal--
you are talking about who lost--I think that is an issue that 
does need to be discussed and the amount of money they have now 
that they could funnel into Syria.
    Ms. Ros-Lehtinen. Thank you, Mr. Collins.
    But now the Florida contingent is really the best. Dr. 
Yoho, you are recognized.
    Mr. Collins. Go, dog.
    Dr. Yoho. Thank you, Madam Chair. I appreciate it. I 
appreciate you guys' patience.
    Mr. Jones, you said, I feel Iran will get nuclear weapons, 
and that is something I have talked about before in these 
panels. In fact, we had Ambassador Bolton here, and he said 
that we can't allow that to happen, but yet our sanctions have 
been going on since pretty much 1979 at different levels. You 
know, they started off, you know, more mild, you know, we froze 
some bank accounts, and now we have gone all the way to where 
we prevented oil from being sold out of that country. And we 
have put these sanctions in place since 1979. Yet, from what I 
am hearing from the four of you is within a year, I think, if I 
understood this right, they are going to have five to six 
nuclear weapons despite our sanctions.
    So my question is the sanctions, you know, I know they were 
well intended, but they don't seem to have worked, so what else 
can we do? And, Mr. Albright, you brought up that we need to 
work together, and I assume with our allies, to prevent Iran 
from getting a nuclear weapon.
    Number one, Mr. Jones, I ask you, do you feel like they are 
going to have these weapons regardless?
    Mr. Jones. I feel like regardless, but not necessarily in 
the near term. We should think of like Pakistan that developed 
these weapons in the late 1980s, but it wasn't until 1998 that 
they actually tested. I mean, most of these countries take a 
long view. I think Washington tends to be sort of too myopic on 
some of this material.
    Also, just on the sanctions, I would like to point out, as 
Ambassador Wallace has said, sanctions have certainly hurt 
Iran. But Iran hasn't stopped, and, to me, that flips around 
the other way. It shows how interested and how determined the 
Iranians are to move forward and not give up.
    Dr. Yoho. Well, and then if you go back and watch over the 
last 25, 30 years, there has been a cat-and-mouse game where 
they are building them; no they are not; yes, they are; you 
know, and we all proved that, yes, they are enriching. And, I 
mean, if you look over the last 10 years, they have gone from a 
few centrifuges to over 19,000.
    Mr. Albright, what you were talking about, how do we 
prevent this? I mean, what is your idea of preventing them from 
getting a nuclear weapon?
    Mr. Albright. Not possessing one at all.
    Dr. Yoho. But how do you do that?
    Mr. Albright. I think that what the priority is now is to 
make sure that Iran is tested on whether it is going to accept 
very serious limitations on its nuclear program and accept 
verification requirements that allow an adequate job to be done 
so that early detection is guaranteed, and there is time for a 
response. So I think that is what needs to be done now, and 
there is a clock ticking that this can't be extended.
    Dr. Yoho. Yeah, I see that clock ticking since 1979. We 
have been working to prevent that, but, you know, I just heard 
you guys say there was four to five bombs they will have the 
capacity to build within a year. And so we can watch them for 
another 6 months, another 6 years. My feeling, like Mr. Jones 
said, is they are going to get one, and what I would like to 
focus on, what do we do looking forward, and how are we going 
to deal with it?
    Mr. Albright. Well, one is I think we don't have to worry 
as much now about them getting four to five bombs in the next 
year because of this Joint Plan of Action; that it did buy 
time; that it removes some of the pressure.
    Dr. Yoho. But earlier on today you just said, you know, it 
was going to be about a year, and they would have four to five 
bombs is what I understood.
    Mr. Albright. That is if they want to do it. I mean, it was 
a theoretical question if they want to do it. I think the Joint 
Plan of Action has bought us time where I don't think they are 
going to try to do it in the next 6 months or a year if it is 
extended. So I think that is an advantage of this deal.
    Dr. Yoho. What can we do? If we look back retrospectively 
on sanctions, how can we handle this differently in the future 
going forward, other than sanctions? I mean, I think the 
diplomacy is the big thing we need to do, and I also think we 
need to prepare. Like you said, Pakistan went ahead and 
developed bombs. India has them. North Korea has them. I think 
we need to have a different policy in place for when they do 
get one. How are we going to handle that, Mr. Heinonen?
    Mr. Heinonen. I think the focus needs to be moved somewhere 
else, particularly for this so-called military dominance. If we 
all the time put all of the efforts on the enrichment program 
only, it is like a chain where you try to improve the strength 
of a chain by improving one ring. But the rest of the rings you 
leave, so never the chain will then be strong. So there is a 
need for refocus, and for really to that part find what is 
there, what is going on, and then dismantle single-use and 
multiuse capabilities.
    Mr. Albright. No, and I agree with that. I mean, it is 
really--the ultimate tests, are they going to come clean about 
nuclear weapons? And if they didn't work on nuclear weapons, 
are they going to provide the information to convince people 
that that is the case? And that can be tested quickly.
    Dr. Yoho. Madam Chair----
    Ms. Ros-Lehtinen. Thank you.
    Dr. Yoho. Thank you. Thank you, guys. I appreciate your 
time.
    Ms. Ros-Lehtinen. Mr. Heinonen, I finally let you finish an 
answer. Not bad, 1 out of 25.
    Thank you so much, panelists, for excellent testimony, 
thank you to all of the members for wonderful questions, and 
thank you for the audience and the press for covering this. And 
with that, our subcommittees have adjourned, and zero seconds 
to get to the floor. No problem.
    [Whereupon, at 4:55 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
